<html>
<title> - [H.A.S.C. No. 113-13] NUCLEAR SECURITY: ACTIONS, ACCOUNTABILITY AND REFORM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-13] 
          NUCLEAR SECURITY: ACTIONS, ACCOUNTABILITY AND REFORM

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
79-996                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, February 28, 2013, Nuclear Security: Actions, 
  Accountability and Reform......................................     1

Appendix:

Thursday, February 28, 2013......................................    33
                              ----------                              

                      THURSDAY, FEBRUARY 28, 2013
          NUCLEAR SECURITY: ACTIONS, ACCOUNTABILITY AND REFORM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     3
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Alston, Maj Gen C. Donald, USAF (Ret.), Former Commander, 20th 
  Air Force, Former Air Force Assistant Chief of Staff for 
  Strategic Deterrence and Nuclear Integration; Brig Gen Sandra 
  E. Finan, USAF, Commander, Air Force Nuclear Weapons Center, 
  Former Principal Assistant Deputy Administrator for Military 
  Applications, National Nuclear Security Administration; and 
  Hon. Gregory H. Friedman, Inspector General, U.S. Department of 
  Energy.........................................................     3
Poneman, Hon. Daniel B., Deputy Secretary of Energy, U.S. 
  Department of Energy; and Hon. Neile L. Miller, Acting 
  Administrator and Principal Deputy Administrator, National 
  Nuclear Security Administration................................    13

                                APPENDIX

Prepared Statements:

    Alston, Maj. Gen. C. Donald (Ret.)...........................    44
    Cooper, Hon. Jim.............................................    41
    Finan, Brig Gen Sandra E.....................................    72
    Friedman, Hon. Gregory H.....................................    91
    Poneman, Hon. Daniel B.......................................   101
    Rogers, Hon. Mike............................................    37

Documents Submitted for the Record:

    DOE Verbal Shortcuts and Acronyms............................   111
    NNSA Key Personnel...........................................   112
    DOE Organization Chart.......................................   113
    NNSA Organization Chart......................................   114

Witness Responses to Questions Asked During the Hearing:

    Mr. Cooper...................................................   117
    Mr. Garamendi................................................   117

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   139
    Mr. Rogers...................................................   121
          NUCLEAR SECURITY: ACTIONS, ACCOUNTABILITY AND REFORM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Thursday, February 28, 2013.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. This hearing of the Armed Services Subcommittee 
on Strategic Forces is called to order. I want to say good 
morning and welcome everybody to today's hearing on nuclear 
security at the Department of Energy's National Nuclear 
Security Administration [NNSA]. Before we get into the hearing, 
I want to welcome our new members to the committee. First and 
foremost, I want to recognize our ranking member, Mr. Cooper of 
Tennessee, my friend and colleague of many years. I look 
forward to working closely with him over the next 2 years as we 
carry out this important work.
    I am not sure they are here, but new to our Strategic 
Forces Subcommittee on the Republican side are Mr. Coffman of 
Colorado, Mr. Wilson of South Carolina, Mr. Nugent of Florida, 
Mr. Bridenstine of Oklahoma. On the Democrat side: Mr. Johnson 
of Georgia, and Mr. Carson of Indiana, and Mr. Veasey of Texas. 
I look forward to working with all of you, as well as my 
colleagues who are returning for another 2 years on the 
Strategic Forces oversight subcommittee.
    This subcommittee has responsibility for many big critical 
important issues, and we are going to get into one of them 
right now. Today's hearing is part of the committee's 
continuing oversight of the aftermath of the security breach at 
Y-12 National Security Complex in July of last year. At this 
point, the facts of the incident are well established so I 
won't repeat them. Needless to say, the intrusion was 
astonishing and completely unacceptable.
    Through its hearing and closed briefing last September, the 
subcommittee is aware of the immediate corrective actions taken 
by the NNSA and the DOE [Department of Energy]. Today's hearing 
is focused on the broader implications of the incident, 
including organizational leadership and structural failures 
that enabled it to occur. Reviewing the testimony from our 
first witness panel as well as the other reports on DOE nuclear 
security stretching back 15 years, I am deeply concerned that 
we have been identifying the same problem for more than a 
decade.
    For instance, in a 1999 report by the President's Foreign 
Intelligence Advisory Board, it said the DOE, ``Embodied 
science at its very best and security at its worst.''
    Highlighting a string of recurring security problems in the 
1990s, the board described DOE as a ``dysfunctional bureaucracy 
that has proven it is incapable of reforming itself.''
    In 2002, a few years after Congress created NNSA in an 
effort to address these concerns, another study by the 
Commission on Science and Security found the same problems. In 
2005, an independent study of NNSA security conducted by 
Admiral Richard Mies again made very similar findings saying 
that the problems were, ``they are not new, many continue to 
exist because of the lack of clear accountability, excessive 
bureaucracy, and organizational stovepipes, lack of 
collaboration, and unwieldy, cumbersome processes.''
    Those reports were from 1999, 2002 and 2005. So where are 
we today? To anyone paying attention, the answer is undeniably, 
nowhere. The assessments done after the Y-12 incident showed 
that the exact same fundamental problems remain. Regardless of 
the structural issues, there is also a problem of 
accountability. The only people who have been fired as a result 
of the Y-12 incident are a few guards, but no Federal officials 
have been fired. Some NNSA site and headquarters security 
officials have been reassigned to other positions within the 
DOD or allowed to retire but not fired. This is not 
accountability. It is the exact opposite of what Secretary of 
Defense Gates did after the Air Force's nuclear security 
problems in 2007 and 2008. His demonstration of accountability 
in the Air Force's senior-most leadership is my example of a 
firm system of accountability, and it should be everyone's.
    Our first panel of witnesses will help us explore what 
changes are needed to ensure a breach like Y-12 does not happen 
again. They are each the author of separate independent 
assessments of the Y-12 incident or broader security issues at 
DOD and NNSA. The witnesses are Major General Donald Alston, 
former commander, 20th Air Force, and former Air Force 
Assistant Chief of Staff, Strategic Deterrence and Nuclear 
Integration; Brigadier General Sandra Finan, U.S. Air Force, 
Commander of the Air Force Nuclear Weapons Center, and former 
Principal Deputy Assistant Administrator for Military 
Applications, National Nuclear Security Administration; and the 
Honorable Gregory Friedman, Inspector General, U.S. Department 
of Energy. I want to thank our witnesses for appearing today 
and the time they have put in preparing their testimony. I know 
it is a labor, but we do appreciate it.
    I have a longer version of my statement that I am, without 
objection, going to offer for the record. Hearing none, it is 
so ordered. And with that, I want to turn to my friend and 
colleague from Tennessee, Mr. Jim Cooper, for any opening 
comments that he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 37.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Chairman Rogers, I look forward to 
working with you and our colleagues on these important issues 
this year. I would just like to ask, in view of the shortness 
of the time, that my opening statement be inserted in the 
record.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 41.]
    Mr. Rogers. Thank you, sir. In concert with that, as you 
all may have been told before the hearing we will be called for 
votes in a little while, so we will dispense with the reading 
of your opening statements; they will be submitted for the 
record without objection, and we will go straight to the 
questioning of the witnesses. The witness order will be General 
Alston, sorry, we won't let you stay retired; General Finan, 
thanks for putting your NNSA hat on one last time to help the 
subcommittee understand these issues, and Mr. Friedman.
    [The prepared statements of General Alston, General Finan, 
and Mr. Friedman can be found in the Appendix beginning on page 
44.]

 MAJ GEN C. DONALD ALSTON, USAF (RET.), FORMER COMMANDER, 20TH 
   AIR FORCE, FORMER AIR FORCE ASSISTANT CHIEF OF STAFF FOR 
 STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION; BRIG GEN SANDRA 
 E. FINAN, USAF, COMMANDER, AIR FORCE NUCLEAR WEAPONS CENTER, 
 FORMER PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR MILITARY 
  APPLICATIONS, NATIONAL NUCLEAR SECURITY ADMINISTRATION; AND 
HON. GREGORY H. FRIEDMAN, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Rogers. We will begin with 5-minute rounds of questions 
and then we will have a second panel after that. I will start 
the questions here.
    General Alston, you and Mr. Augustine and Dr. Meserve seem 
to have read the many reports and independent reviews of DOE 
security that have been conducted previously. Your letter to 
Secretary Chu calls it, ``The considerable body of work that 
has been done on the subject over the past decade.'' In 
particular, you mention the review done by Admiral Mies in 
2005. You heard me, in my opening statement, mention a few 
others, but there are many more. How do your findings and 
recommendations compare to those contained in the findings of 
all the previous reports?
    General Alston. Mr. Chairman, thank you very much.
    Mr. Rogers. Your microphone needs to be turned on, please.
    General Alston. Need coaching and I am trainable. Mr. 
Chairman, thank you for the question, I would say that probably 
the most disturbing thing that Dr. Meserve, Mr. Augustine, and 
I found was the recurring evidence of problems that have 
existed before. And when you take a close look at Admiral Mies' 
work that he did, I count about 111 recommendations that the 
Department of Energy showed us, a matrix, we had grades on 
them, and without doing an exhaustive detailed cross-check of 
what Admiral Mies found and what we were finding but doing a 
rather cursory look at that, I would take issue with a variety 
of those assessments in terms of the health of those particular 
findings.
    Of course, since 2005, there has been a lot of time over 
the course of those 8 years, and I can't say that I saw any 
evidence of reaching back to the Mies reports. So I don't know 
how fresh the management of the Mies findings and 
recommendations was. I don't know the last time they revisited 
that or if that is a regular phenomenon that they do revisit 
all those findings. But just a few of them that point towards 
culture and things that we found to be a legacy of challenges 
in the Department of Energy: no team approach toward security, 
struggling to succeed in an atmosphere of conflicting 
viewpoints, headquarters versus the field, lab versus lab, site 
office versus contractor, academic versus operational, union 
versus management, and then non-NNSA elements in the Department 
of Energy.
    There have been recurring challenges as site field offices 
would see a need to upgrade security. We saw lack of 
discipline, that Admiral Mies found as well, in terms of having 
a broad strategic vision for what the overall security 
requirements and standards should be, and a sensitivity to 
elevate the unique features of each site as opposed to having 
standardized common security requirements being the principal 
focus and the site offices having to defend wanting to be 
different. But without discipline and strong central management 
of that, then folks could conceive, design, develop, and deploy 
systems that might not be as fully vetted and ready as they 
need to be, and I think Y-12 is a good example of that.
    Mr. Rogers. Why do you think this culture was allowed to 
continue? Because it did happen over years. In your opinion, 
after each of these studies, were there any consequences and 
then they would lapse back into this culture or were there 
never any consequences?
    General Alston. We found it difficult to have traceable 
authority from the field up the chain of command to find 
unambiguous certainty that somebody was in charge of one 
element of security or another. And because that seemed 
ambiguous, and because there was a prevailing notion that it is 
an eyes-on/hands-off surveillance mantra, that the field--the 
sites have, over time, enjoyed being distanced from the 
headquarters and sort of being alone and unafraid, and 
certainly, I was in a military organization and we didn't like 
interference from the headquarters.
    However, when it comes to security, I think there are 
benefits to having good central management that may not be true 
for science, but I do believe it is true for security.
    Mr. Rogers. Do you believe that if there had been somebody 
at the top of the command chain held responsible for the 
findings of any of these earlier studies in a significant way 
by termination that it would have helped to eliminate that 
culture's continuance?
    General Alston. Well, sir, that would be one action that 
could be taken, but that action alone I don't think would 
necessarily have resulted in all of the fundamental changes 
that would have had to occur.
    Mr. Rogers. Why?
    General Alston. Well, I think that gets everybody's 
attention. I showed up on the Air Staff the same weekend that 
we had our unauthorized munitions transfer from Minot to 
Barksdale, a very epic failure for our Air Force. So, I was 
there for the next 3 years working that particular problem. The 
Air Force did not--we worked the problem hard for the first 
year, but when we lost the Chief and the Secretary, life was 
different, and the entire Air Force had to rally around not a 
security problem, but an enterprise failure. And because we 
looked at this in the largest context, I believe that after 
spending 9 months working the problem to no one's satisfaction, 
that it certainly was an extraordinary accountability action by 
Secretary Gates which had the Air Force focus on that problem 
in a way that we had failed to focus on it before, this is 
absolutely true.
    Mr. Rogers. Thank you very much. The chair now recognizes 
the ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. There are lots of 
issues here, too much red tape in the bureaucracy, questionable 
contractor performance. But I think that one thing folks back 
home understand is what do we get for taxpayer dollars? And the 
inspector general [IG] pointed out that DOE-wide we are 
spending something like $1 billion a year just in protection of 
facilities. And he mentions in his testimony that $700 million 
per year spent on complex-wide protective force of about 4,000 
workers, contract professionals; that would be $175,000 
compensation for each guard; that is a lot. And a lot of folks 
back home would ask, well, we paid all these people, did we get 
any security and result in return?
    The focus, of course, of today's hearing is the Y-12 
facility, which we discover now wasn't even nun-proofed, much 
less terrorist-proofed. And the expenditures are called for the 
Y-12 facility, we just spent $150 million a year protecting 
that one plant, and yet we couldn't catch two 70-year-olds and 
one 80-year-old as they breached the perimeter. And as the 
chairman has quite correctly pointed out, it is hard to find 
that anybody was punished except the lowest level guard, and it 
doesn't seem like this is a fair way to treat a security lapse 
of this type.
    So I know that time is of the essence, I just want to 
encourage the IG and I appreciate the work of Meserve and Finan 
to help us understand this. But the bottom line is taxpayers 
need to get results for their dollars. Right now in DOE, it 
doesn't seem like we are getting those results. Welcome a 
comment, but I know that time is short.
    Mr. Friedman. Mr. Cooper, are you asking me for a comment? 
I think you have synthesized the high points, several of the 
high points in our reports over time. I might point out that 
safeguards and security, from our perspective, has been a 
management challenge at the Department of Energy for at least 
the last decade, so this is a continuing problem. And if I may 
respond subsequently to a question from the chairman to General 
Alston, we have found over time that, I think the chairman 
phrased it exactly correctly, that there has been a lack of 
sustained effort to cure a problem. There has been sort of a 
short-term fix and then the fix, and the effort to fix 
evaporates over time.
    And secondly, if I can, security cannot be a sideline, it 
has got to be integrated into the very essence of a production 
plant like Y-12 and all the other department facilities. So it 
has to be an integrated approach from the get-go to the end 
rather than a separate function. So I think those are two 
highlights, and your issue that you have highlighted, Mr. 
Cooper, about costs are ones of course that concern us a great 
deal.
    Mr. Cooper. It shouldn't just concern us. We paid no 
telling how many tens of hundreds, millions of dollars for 
cameras at Y-12 that didn't work, and an alarm system that gave 
off hundreds of false alarms a day. Where is the refund from 
the contractor? You know, the best we can tell, people got 
performance bonuses. Excellent ratings. This is astonishing 
that the taxpayer got back so little for their money, 
especially in such a secure installation. I thank the chairman; 
I yield back the balance of my time.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
my friend from Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman, thank all of you 
for being here. I don't want to mischaracterize my friend's 
comments about the 80-year-old nun, it seemed like he kind of 
did that in a rather diminishing way. I understand she was 
quite spry for 80, and that that should be taken into account. 
When you make the comparison about the guards costing about 
$175,000 a year for taxpayers, I have been looking at the 
numbers here, and that is about what Congress gets paid, and I 
am afraid the connections and the parallels here are a little 
frightening for someone like myself, because we wonder if maybe 
we are not all a little bit overpaid.
    It is very easy for us to kind of, as I just did, make 
little jokes about these kinds of things and sort of step back 
from almost a holier-than-thou position. It is easy from an 
armchair perspective to say ``how could this ever happen.'' And 
yet in a sense, that is a little bit--that is our job here on 
the committee to try to exert some oversight that hopefully 
will change a culture that has made a particular error here in 
a better direction.
    I know that if we really were all honest with ourselves, we 
would look at this from a much larger perspective. History has 
been pretty unkind to those who have tried to maintain nuclear 
security. If we had done that well decades ago when we first 
gained this technology, the Soviets would never have gained 
that technology and there never would have been a Cold War. So, 
this is not as unprecedented; I think I remember some story 
where we had to drop one of our atomic bombs off the coast out 
of a plane, I think it is still there, years ago.
    These are not as unprecedented as they seem, but because 
they are so serious, it occurs to me that we have to try to 
back up and ask ourselves, why is it that there is this 
hallmark for us letting these kinds of things be so easily 
secured when the implications are so profound? So I guess I am 
going to ask sort of a question for all of the panel members. 
If there was one thing that you could do in this particular 
instance and in a broader instance of trying to help both our 
civilians infrastructure and our military apparatus understand 
the need for more security when it comes to nuclear technology 
and weapons that have these profound implications, what is the 
one thing, General, I will start with you, that you would 
suggest that we do? Is it a mind-set? Is it a systemic issue? 
What would you postulate?
    General Alston. Well, sir, I would tell you that Mr. 
Augustine and I, in particular, and I think Dr. Meserve 
mentioned it as well, but the cultural challenges facing the 
Department of Energy when it comes to a culture that doesn't 
segment security, doesn't segment safety, but rather looks at 
them as all essential to mission as opposed to trade space, 
that that is a very profound challenge because taking culture 
on head-on is a very challenging effort. But, we found that 
this, and I have had recent discussions informally with people 
not involved directly with this where security is now perceived 
as, you know, we have to go through the hurt right now. And, 
security is perceived as sapping strength and competing with 
science and other priorities in the Department.
    So I think there is still a long way to go in a pervasive 
culture where every last person that is working in NNSA or the 
Department of Energy sees security, and safety, and mission, 
not as separate things that need to be tended to, and 
prioritized, but rather have a common view how important and 
vital they are and essential every day to mission success.
    Mr. Franks. General Finan.
    General Finan. Well, I would echo what General Alston just 
said and I think that is the primary thing you have to do is 
work on the culture so rather than repeat that, I think given 
culture as an issue that must be addressed, I think the next 
thing that we have to think about is lines of authority. We 
have to be very clear on who is responsible for what. We have 
to then follow up and give the authorities necessary to execute 
those responsibilities and once we do those two things 
throughout the chain of command, then we can hold people 
accountable. But one of the continuing things that NNSA and DOE 
before it have struggled with was defining roles and 
responsibilities and then giving the appropriate authority to 
execute those responsibilities, and that has been a 
longstanding issue that we really need to straighten out in 
order to create that accountability and ownership of that 
security mission.
    Mr. Friedman. Mr. Franks, I concur with what has been said 
previously. And maybe this is too far down in the weeds, but if 
there was, in addition to what has already been said, if there 
was one problem, and I guess it builds on what General Finan 
just referred to is that we need to be sure that employees at 
all levels are empowered to raise serious issues and that there 
is a process in place to ensure that those issues are, in fact, 
addressed. I think that applies in terms of safety, it 
certainly applies in terms of security. And it certainly was a 
problem, a root cause problem we found at least with regard to 
the Y-12 issue and security generally throughout the Department 
of Energy.
    Mr. Franks. Thank you. And thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
Mr. Garamendi for 5 minutes.
    Mr. Garamendi. I would like each of the witnesses to take a 
minute and a half and talk about where we are today. This is 
all history; what has been done along the lines, if you know, 
to carry out the recommendations that have been made? We will 
start with the General, General Finan.
    General Finan. I left NNSA over a month ago, but before I 
left, I can tell you that there was structural changes 
occurring within the security organization so they were in the 
process of implementing the recommendations to stand up an 
operationally focused organization that would help ensure 
standardization across the fields. They were also in the 
process of creating standards and criteria for security so that 
people in the field would know what standard they needed to 
meet and what criteria would be used to evaluate them. There 
were personnel changes that had occurred in order to bring in 
what I call true security expertise. Security is a special 
skill, and we have people throughout this country who have 
those skills, and so we need to seek out those individuals and 
bring them in so that they can bring that skill set to the 
NNSA. So, that was ongoing. So, basically all the 
recommendations that I had out of my reports were being enacted 
at the time I left.
    Mr. Garamendi. And Mr. Friedman.
    Mr. Friedman. With regard to the recommendations we made in 
our earlier report, Congressman, we have not received the final 
departmental position, so we are not--we have heard anecdotal 
information of what steps have been taken and we are waiting 
for that to occur. In the interim, between our reports, both 
General Alston and his group and General Finan have done their 
reports. We have also issued a report on the contractor 
assurance system which is a system that NNSA has in place to 
evaluate contractor actions. We intend to go back at some point 
in the future and look at the process and determine whether the 
fixes that have been committed to and promised have, in fact, 
been made.
    Mr. Garamendi. When is that point in the future?
    Mr. Friedman. I guess that is the pointed question I wasn't 
prepared to answer. We will--it is a high priority for us 
because obviously security is essential in a nuclear weapons 
environment.
    General Alston. I left the effort the first week of 
December, and the draft recommendations, which we were exposed 
to, were not in the charter that Secretary Chu had given us, so 
I don't think I am in a position to comment.
    Mr. Garamendi. Good. Let me go back to you, Mr. Friedman. 
One of the oversight and review organizations is you, and it 
would seem to me that holding people accountable is what you 
guys do, so I am concerned about your response that at some 
point in the future and so on and so forth. I would like a more 
precise answer. And with that, Mr. Chairman, I yield back.
    [The information referred to was not available at the time 
of printing.]
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
Mr. Nugent for 5 minutes.
    Mr. Nugent. Mr. Friedman, just to follow up on Mr. 
Garamendi's question, you do the inspection, you prepare a 
report, you send it to the powers to be, and they are the ones 
that have to make things accountable, am I correct on that? Do 
you hold them accountable, or do the administrators hold their 
rank and file accountable?
    Mr. Friedman. Well, our reports in these instances, 
Congressman, were sent to the Secretary; it is ultimately the 
Secretary's responsibility to hold his subordinates 
responsible.
    Mr. Nugent. I would think, General Alston, when you took 
over as related to the incident in the Air Force, were people 
held accountable at the upper echelons, or was it just the 
lowest ranking folks that are easy picking when something goes 
wrong, or do you look at the culture, which I have heard from 
all three of you in regards to how things actually occur?
    General Alston. Initially, it was just the lower level 
leadership, wing commander, squadron commander, a couple of 
group commanders, so there were a handful of colonels. 
Following the installation of the new Secretary and the new 
chief of staff, I know there was a further detailed review, and 
I am not privy to exactly what the actions were.
    From a distance I understand that General Schwartz, as one 
of his initial responsibilities after evaluating how to do 
accountability in these circumstances, taking in stock not just 
the unauthorized movement in the nuclear weapons, but also the 
incident that involved some components that were opened in a 
box in Taiwan, that the chief of staff then personally dealt 
with the general officers in ways that I am just not personally 
privy to.
    Mr. Nugent. You know, in experience, in regards to leading 
an organization, somebody has to be accountable. And typically, 
when you discipline the lower ranks and you mentioned it, there 
are other folks because it is a culture, and all three of you 
have mentioned that, a culture of really failed leadership 
within NNSA and DOE as it relates to security. How do we--if 
you were in charge, how do you fix that specifically from the 
IG's perspective? Where does the ball finally end?
    Mr. Friedman. As I alluded to in my earlier comment, 
Congressman, security cannot be treated as a stepchild, as a 
side show, it has got to be integrated into the process from 
the very outset. And that is one of the key issues that we have 
found has not been in place. You can call that a cultural 
issue, perhaps that is correct, and I think--I would refer to 
it as a ``tone at the top'' issue. It has to flow down from the 
highest levels of the Department and permeate and people have 
to be held accountable. I know that may sound like a textbook 
sort of lessons, but I think that is what needs to be done and 
it seems to me there has been a commitment to begin that 
process. And as I alluded to earlier, sustainability is really 
the issue. We are on a path now, we have anecdotal information 
that changes have been made, not personnel changes that you are 
referring to, I understand that, but changes have been made in 
the systems. The question is will that be sustained going 
forward?
    Mr. Nugent. And it really is buy-in from the leadership. 
You can change systems and you can change policies, but if 
there is no one there to actually make sure that the rank and 
file are following the policies and procedures, nothing gets 
done from a positive standpoint. So we can talk the game, but 
at the end of the day how is NNSA and DOE actually going to 
hold the upper-level administrators accountable for the 
security that is so important to this Nation? How do you 
suggest that happen?
    Mr. Friedman. Well, I think the administrator of NNSA 
reports to the Secretary of Energy under the current format. 
And ultimately, and obviously there are changes in process as 
we speak. Ultimately, it will be the responsibility of the 
Secretary to set the tone at the top with regard to security, 
and make sure that his subordinates and his direct reports 
certainly understand the emphasis on security and his desire to 
ensure that at a subsequent point, he can come back to them and 
receive confirmation that security has been treated as a 
priority.
    Mr. Nugent. I thank all three of you for your testimony, 
and I think your direction in regards to what the issues are, 
or more importantly--I mean, you have identified the people 
that actually have to make it happen obviously aren't here at 
this point. So thank you very much.
    Mr. Rogers. Thank the gentleman. You know, it is astounding 
to me, we are not talking about an equipment site, we are 
talking about nuclear materials. And I keep hearing this issue 
about, well, it is a culture and we need to have more 
responsibility up the chain of command, nobody is talking about 
firing anybody. You know, as the general said earlier, when the 
Secretary ran off the Secretary of the Air Force and the chief 
of staff, it got everybody's attention. It seems like nobody is 
talking about we have to go to those levels of responsibility 
and run somebody off to make sure everybody understands that 
security is integral, and has got to be a part of the system. 
But, I don't hear anybody calling for that, but that is just 
me. Mr. Wilson is recognized for five minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you all for 
being here today, and Mr. Friedman, I am an alumnus of 
Department of Energy, so I appreciate your service there as IG, 
a very important position. In fact, it is so important, and 
General Finan, for both of you, you refer to an eyes-on/hands-
off approach to oversight. Can you explain why you flagged this 
as a concern? Why did this contribute to the security failure? 
And where did this approach come from? And what has been done 
and it has been referenced, but what has been done to fix this, 
beginning with the general?
    General Finan. Yes, sir. Eyes-on/hands-off was interpreted 
in the security community at NNSA to mean that Federal 
personnel were not really to interact with the contractor in 
executing security duties, they were only to watch them execute 
duties. And in many cases, not even allowed to interact with 
the contractor as they accomplished those duties. What that 
evolved to was basically a completely Federal hands-off policy; 
that said, in my Federal role, I can't tell the contractor what 
to do. I can give general directions that say, okay you need to 
secure a site, but the Federal personnel then failed to give 
additional directions that said anything about how. Well, 
nuclear security is absolutely critical, and it is inherently a 
Federal responsibility, and that means the Federal personnel 
have a responsibility and a duty to be a little bit more 
specific, and in fact, tell contractors exactly how to do 
nuclear security.
    Now there are some variations and things like that, but 
what evolved over time was rather than evaluate--if you ask me 
to evaluate nuclear security, I am going to come up with 
scenarios that I think are significant and then I am going ask 
the contractor to execute them so I can see the contractor 
execute those duties. We took--eyes-on/hands-off took the 
Federal Government out of that role. What it did was it let the 
contractor decide what scenarios would be evaluated and it was 
all about contractor self-assessment and Federal oversight was, 
in fact, diminished. And so what happened is we really didn't 
have any insight. Federal personnel in NNSA did not have 
insight into the details of how the contractor was executing 
that mission. And so, that really is eyes-on/hands-off and 
where it evolved to.
    Mr. Wilson. I appreciate your raising that because I am 
very grateful the Savannah River Site is in the district that I 
represent, in Aiken and Barnwell County. And, I have had the 
opportunity to visit so many times, and to see the 
extraordinary personnel of perimeter security, so I have seen a 
positive. So it is startling to me that something like this 
could occur. Mr. Friedman.
    Mr. Friedman. I associate myself with General Finan's 
remarks. I think she has characterized it perfectly, but if I 
can take a minute and describe a specific that was in our 
original findings. There were very, very expensive, costly 
cameras and detection equipment at Y-12 that was inoperable for 
up to 6 months and just the backlog of repairs had never been 
addressed. Now, the local Federal officials were aware of it, 
but they did not feel they were empowered because of eyes-on/
hands-off essentially, they didn't feel they were empowered to 
force the contractor to reprioritize the work, the maintenance 
work that was being done to be sure the detection equipment was 
operating as intended. It was a vital essence, essential part 
of the perimeter defense mechanism at the site. And that is an 
example of how we have gotten to the point where, as I said 
earlier, we need to empower these individuals to ensure if they 
have a problem like that, number one, they can bring it up with 
the contractor and ensure that the issue is addressed. And 
number two, if it is not addressed, that it goes to the 
Administrator and that there is appropriate action taken.
    Mr. Wilson. And that is particularly startling because when 
we think of the new technologies, we think of this as better. 
And so I know that your report indicates that there should be 
periodic in-depth reviews of contractor security, and certainly 
that would include that the equipment is working.
    Mr. Friedman. Absolutely. It is vital. There is no excuse 
as far as I am concerned, in an environment such as Y-12, one 
of the most sensitive sites in this Nation, to have equipment 
inoperable and not treat it as a critical priority to get it 
back on line as quickly as possible.
    Mr. Wilson. And for the protection of the American people, 
again, the new technologies we have should be used to their 
highest and best use, and I appreciate your efforts, all of you 
to do this. I yield the balance of my time.
    Mr. Rogers. I thank the gentleman and the chair now 
recognizes Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. I want to thank all 
of you for what you have done to serve and help our country. 
You can all jump in on this question, but General Alston, I 
want to ask you a two-part question. When there was the 
unauthorized transfer of nuclear weapons from Minot to 
Barksdale, the Air Force really drilled down and saw this as a 
broad issue that had to be addressed, even going so far as to 
reemphasizing the importance of the nuclear mission in the Air 
Force all the way back to the Air Force Academy, which is in my 
district. So could you address how that was done? And then how 
does that contrast with what is being done, if there is a 
contrast with the Y-12 incident?
    General Alston. Well, sir, thank you for that question. 
What we recognized was that the Air Force, having been flying 
combat missions for such an extended period of time, and with 
the emerging emphasis on irregular warfare, that conventional 
operations and irregular warfare were elevated in their 
priority in terms of the way the Air Force resourced itself and 
the tempo and deployments. And the price you paid for that was 
a de-emphasis in the nuclear part of our mission set. And, we 
were born in that strategic attack mind-set and capability, but 
we had lost that focus because of other competing priorities. 
So when we looked at the professional military education for 
our NCOs and our officers, we reassessed that there was 
insufficient, and, in some cases, very little to non-existent 
elements of nuclear in those programs so that a broad brush was 
painted across all of our airmen as opposed to just those who 
have nuclear mission responsibilities today, because we felt it 
was important that everyone in the Air Force should have a 
broad sense of what we are about as airmen.
    And so, we attacked that and there was a lot of re-attack 
as we looked and evaluated, looked and evaluated, and changed 
those programs so that we were satisfied the modules on nuclear 
were worthy at that level of education. But we didn't want to 
sort of cashier or contract out, if you will, strategic 
deterrence to just the nuclear operators; everyone needed to 
understand the larger context as best we could do.
    Now the whole service was energized in the face of this 
epic failure, and we considered it an enterprise failure. This 
was mission failure at historic levels for us and we looked at 
it that way.
    The challenge, I think, with the Y-12 situation is we 
didn't necessarily find a pervasive evaluation that this was 
mission failure that could be a wakeup call across the 
enterprise. The guys at Oak Ridge made a very bad mistake, but 
the guys at Pantex or the guys at Savannah River have not made 
that transgression. So weaknesses that might be systemic in 
other places with the distance that the sites preferred we 
didn't witness a strong embrace to say, truly, how can we 
ventilate the deficiencies there and see them here. I believe 
that work took place. I just think that the self-critical 
capacity can be improved in the NNSA and the Department of 
Energy to make that assessment broad and legitimate.
    Mr. Lamborn. For either of you other two, General or 
Inspector General?
    General Finan. I agree with what General Alston stated. And 
when I took a look, I took a look just at the Federal 
organization and the Federal assessment model contained within 
NNSA, and there were structural flaws in both the organization 
and the assessment model, which is why I recommended a complete 
change in the organizational model and a new assessment model 
to reach out beyond Y-12 to all the other organizations because 
it does, in effect, affect all eight NNSA sites.
    Mr. Friedman. Again, I agree with my colleagues at the 
table, I would say that one of our, I think more important 
recommendations which actually sounds very subtle and may sound 
actually unimportant is that the lessons learned from Y-12, and 
it was a tremendous wakeup call because Mr. Cooper described 
the three intruders, they could have been three people who were 
armed in a different way and had malicious intent, and could 
have been a real tragedy, so we had a tremendous wakeup call. 
Our point--one of the points we made was that it is important 
that the lessons learned from Y-12 be exported throughout the 
entire Department of Energy complex, so that we are in a mode 
of preventing this sort of thing from happening again, not just 
simply reacting, should it occur in another location.
    Mr. Lamborn. Thank you, thank you, Mr. Chairman.
    Mr. Rogers. The chair now recognizes Mr. Veasey for 5 
minutes.
    You know, the point you just made goes back to what I said 
earlier, and that is, we have learned some real lessons at Y-
12, but apparently, we have been hearing this call for these 
changes for a long time. The thing I want to assure the folks 
who are listening to this is this committee is not going to let 
this go, the DOE and NNSA are going to fix this problem going 
forward in a meaningful way. And until they do, we are going to 
make them wish they had. So this is not going away. We are--
does the ranking member have any more comments?
    We are about to be called for votes, I want to thank our 
witnesses for their time and their energy and attention, and we 
appreciate you and we will go into recess now for our votes and 
bring our second panel back up after votes. Thank you.
    [Recess.]
    Mr. Rogers. I would like to call this hearing of the Armed 
Services Subcommittee on Strategic Forces back to order. And 
apologize for the delay, but our votes are over for the day. 
And I thank our panelists for hanging around and look forward 
to their comments.
    I do want to thank you for your time and energy in 
preparing for this hearing. I know it takes a lot of time and 
effort, but you know it is important to us that you have done 
it. So thank you for that.
    What I would like to do, your full statements have been 
submitted for the record. Jim and I both read them, the ranking 
member and I have both read them, but I would like to ask each 
one of you to take about a minute and synopsize the content of 
your opening statement, and then we will just go directly to 
questions, for time sake.
    Oh, I am sorry. Didn't introduce the witnesses. I thought I 
had done that earlier. We first have Secretary Daniel Poneman 
and Honorable Neile Miller. She is the Acting Administrator, 
and Principal Deputy Administrator for the NNSA.
    Secretary Poneman.

   STATEMENT OF HON. DANIEL B. PONEMAN, DEPUTY SECRETARY OF 
 ENERGY, U.S. DEPARTMENT OF ENERGY; AND HON. NEILE L. MILLER, 
   ACTING ADMINISTRATOR AND PRINCIPAL DEPUTY ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

              STATEMENT OF HON. DANIEL B. PONEMAN

    Secretary Poneman. Thank you, Mr. Chairman, Ranking Member 
Cooper, and members of the subcommittee. We are grateful for 
the invitation to appear before you today to provide the 
subcommittee details on the actions the Department has taken or 
will take to strengthen the security of the nuclear weapons 
complex in the wake of the July 2012 Y-12 incident. We 
appreciate the interest and engagement of this committee and 
recognize the important oversight role that you fulfill.
    The Secretary and I recognize the severity of the problem 
that led to this point and we have acted swiftly to identify 
and address the issues it revealed. Since the Y-12 incident, 
several major actions have taken place to improve security 
immediately and for the long term, and I will just mention, in 
deference to your request, Mr. Chairman, just a few.
    We restructured the contracts at Y-12 to integrate security 
into the line of command of the M&O [management and operations] 
contractor. The protective force contractor was terminated and 
a new M&O contractor has been selected to manage the Y-12 site, 
providing an opportunity for new leadership and to improve Y-12 
security culture. We held accountable both the senior Federal 
and contractor management personnel at headquarters and at the 
site, removing them from their positions. The Department's 
Chief of Health, Safety, and Security [HSS] conducted an 
independent security inspection of the Y-12 security 
operations, including rigorous force-on-force performance 
testing, as well as no-notice and short-notice limited scope 
performance testing activities as directed by the Secretary, 
and they will be conducting a follow-up review in April.
    The Secretary also directed HSS to conduct immediate extent 
of condition assessments of all Category 1 sites across the DOE 
complex to identify any immediate security issues and to follow 
up with full security inspections, including force-on-force 
exercises, to assure effective security measures are being 
implemented at those sites. NNSA conducted an immediate after-
action report to identify causes, followed by the report, which 
I know you have heard about this morning, from General Finan. 
The former Deputy Administrator tasked General Finan with 
reviewing the Federal NNSA security organizational structure 
and security oversight model. And you have heard about her 
recommendations, which we are implementing, so we can talk 
further about that during your questions.
    Finally, we had an independent group--actually they were 
individuals, all of whom have distinguished, long careers in 
national security and in nuclear matters. Each one provided 
thoughtful advice on the DOE's nuclear security structure, 
specifically all Category 1 nuclear facilities, and we are now 
reviewing and discussing their advice on how to improve 
security at Y-12 and across the nuclear enterprise.
    So in conclusion, the series of personnel and management 
changes that I have described today have been made to provide 
effective security at the Y-12 site and across the DOE complex. 
We are working to carry out the structural and cultural changes 
required to secure all Category 1 nuclear materials at this and 
all of our facilities. Our management principles hold that our 
mission is vital and urgent. Nowhere is that more true than 
here.
    The security of our Nation's nuclear material and 
technology is a core responsibility of the Department in 
support of the President and in defense of the Nation. The 
incident at Y-12 was unacceptable and served as an important 
wakeup call for our entire complex. The Department is taking 
aggressive actions to ensure the reliability of our nuclear 
security programs across the entire DOE enterprise, and will 
continue to do so.
    In that effort, the Department looks forward to working 
with this subcommittee, sir, to ensure the security of the 
Nation's nuclear materials. And, Acting Administrator Miller 
and I would be very pleased to answer any questions from you 
and members of the committee.
    [The prepared statement of Secretary Poneman can be found 
in the Appendix on page 101.]
    Mr. Rogers. Thank you.
    Ms. Miller, did you have an opening statement?
    Ms. Miller. No, sir. Mr. Poneman is giving the statement.
    Mr. Rogers. Great. Well, thank you. And, I will start off 
with the questionings for Secretary Poneman.
    As Deputy Secretary for the Department of Energy, you 
talked about this being unacceptable, and you just made some 
reference to some corrective actions, and you talked about how 
you have now completed an integration in the line of chain of 
command with a new contractor. What is different in this line 
of chain of command?
    Secretary Poneman. Okay. At the time of the incident, Mr. 
Chairman, there were two separate contracts at the site. One 
was the overall management operations contract for the site.
    Mr. Rogers. Okay. You are talking about the line of chain 
among the contractors, not within the Department. Have you 
altered that in any way? That once the contractor notifies the 
Department of anything, good or bad, has the chain from that 
contact person up the stream been modified at all?
    Secretary Poneman. Yes. But the way the contract is 
structured affects it. But I will go right to the part you 
asked. One of the things that General Finan found in her report 
was that there was lack of clarity, that the organization known 
as NA-70 for nuclear security was exercising some authority in 
line management over security activities at the site, as was 
activities under our infrastructure and operations, the so-
called double zero. That was confusing. We have ended that. We 
have made it very clear that the line management must go down 
from the Administrator through the Infrastructure and 
Operations Office. And that has removed the security 
organization, NA-70, from that.
    NA-70's role has been clarified so that their role is to 
develop the plans, it is a staffing function, and then to 
evaluate the performance. That had the additional change in the 
field, Mr. Chairman, that the evaluation of performance under 
the contract was no longer done by the field Feds, which was 
creating, in General Finan's review, too close of a situation 
between the people on the site, between the contractor and the 
Fed.
    And so I think we have really clarified it, but the other 
fact that actually bears on this as well is there was also 
confusion that was created by having these two separate 
contracts at the site, and we have immediately folded the 
Proforce [protective force] security boots-on-the-ground 
contract under the M&O contract, just to clarify.
    Mr. Rogers. Okay. Under this new structure, if we were to 
have another incident, who would be the ultimate person 
responsible for security at that Y-12 site?
    Secretary Poneman. The line management is always 
responsible, going straight down from the Secretary down 
through the NNSA Administrator.
    Mr. Rogers. Walk me through it. Secretary----
    Secretary Poneman. Deputy Secretary, NNSA Administrator, 
the director of the Federal site for the NNSA, and then it goes 
straight from that person to the senior contract official.
    Mr. Rogers. And that was not the case when this incident 
occurred?
    Secretary Poneman. There was confusion because there were 
directives that were coming out of the NA-70 organization that 
could have been confusing in terms of where the accountability 
was from the perspective of the people at the site.
    Mr. Rogers. Aside from the contract with the contractor 
being terminated, which it was about to expire anyway, you 
mentioned that responsible people were reassigned. You put 
removed from their responsibilities, but they weren't fired. 
Why weren't they fired?
    Secretary Poneman. Sir, the first thing we had to do in the 
incident was we, as you have said many times, hold the people 
accountable. So we did that both at the site and at the 
headquarters. The top three officials at the headquarters 
responsible for nuclear security were removed from those 
positions. The top two relevant officials on the Federal side 
at the site were removed from their positions.
    Mr. Rogers. Why weren't they fired, though? Why were they 
just removed? This is a nuclear facility.
    Secretary Poneman. That is true, sir. There are additional 
disciplinary actions that have been underway. We have due 
process and various procedural safeguards that occur in our 
system, and those are now being pursued. But the important 
thing in terms of protecting the nuclear material was to get 
those people out of that line. Most of them are out of the NNSA 
entirely. And in addition, we ensured that people at the 
contractor level knew they had lost our confidence. And the top 
two officials responsible at Y-12 on the contractor side were 
also removed.
    Mr. Rogers. Well, you know, you heard me earlier talk about 
Secretary Gates. He fired the Secretary of the Air Force and 
the Chief of Staff of the Air Force when he had a similar 
incident. I think that is the model. Do you disagree that 
should be the model in how we respond to serious security 
violations at important facilities like this?
    Secretary Poneman. I certainly agree, Mr. Chairman, that 
accountability is absolutely crucial. I am not deeply intimate 
with the details of the 2007 Air Force incident. I have the 
highest regard for Secretary Gates. But I think the principles 
that he described in terms of accountability are very much ones 
that we share.
    Mr. Rogers. Well, I would hope so, and I would hope you 
start reflecting those going forward, because that is the kind 
of action that sends a clear message that these lapses in 
security will not be tolerated, because the other factor here 
is this has been going on for 10 years. We have had study after 
study after study. So, frankly, the folks at the top of the 
food chain really should have known about this before it 
happened and shouldn't have been allowing it to happen.
    But with that, I will turn to my ranking member, Mr. 
Cooper, for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I welcome the 
witnesses. I am sorry we have to be here, because this incident 
never should have happened.
    You say that you are for accountability, but wasn't the 
main contractor there, Babcock & Wilcox, still able to receive 
60 percent of its award fee, or $36 million, right after the 
incident happened?
    Secretary Poneman. Mr. Chairman, the way that----
    Mr. Cooper. I am not the chairman. I am the ranking member.
    Secretary Poneman. Oh. Sorry. Mr. Ranking Member. The award 
fee under the terms of the contract--and I think it is a very 
fair question to pursue how we structure these in terms of 
compensation, I think that is an absolutely fair point--the 
only amount of fee that was available for security was zeroed 
out. So that was removed from the contract.
    The way they got to the 40 percent reduction of fee was by 
taking all of that and then going beyond that. There are other 
things happening at the site in terms of naval reactor fuel, in 
terms of directed stockpile work, and so forth. And the way 
that the contract is structured, the fee is bucketed. And we 
took the fee that was available to take away, away, and that 
was a series that we have actually followed up in subsequent 
incidents also seeking to claw back fee, because we agree the 
American people should not be paying for underperformance when 
it comes to security.
    Mr. Cooper. And how much of the fee do you expect to claw 
back?
    Secretary Poneman. Well, the numbers that you have cited 
there, there is 40 percent in the episode at Y-12 for the 
contract.
    Mr. Cooper. But I thought you said there were further 
efforts going on.
    Secretary Poneman. There was a $10 million fee that was 
clawed back for another episode elsewhere in the complex.
    Mr. Cooper. But immediately prior to the incident, your 
agency in its wisdom had given Babcock & Wilcox an excellent 
rating for its safeguards and security work, and they received 
their full $51 million incentive fee in fiscal year 2011, even 
though, as has been testified to, the cameras weren't working 
on a wholesale basis, took months and months to ever do 
repairs. Why do they get their entire incentive fee right prior 
to the incident?
    Secretary Poneman. Congressman, this flags exactly one of 
the deficiencies in the structure that preceded this incident, 
because there was, as again General Finan's report I think 
makes very clear, a tendency to not have the boots-on-the-
ground analysis and review, but to have the evaluation based on 
what the contractor said, and then have an on-paper review. 
That is why separating that role out from the site and putting 
it into the nuclear security organization at headquarters would 
hopefully correct that.
    We did not see the things in advance the way we should 
have. Obviously, had we seen those things in advance, we would 
have replaced all 62 cameras ahead of time. I am hoping, and I 
believe that both the organizational and the cultural changes 
that we are going to institute pursuant to the Finan report 
will prevent this kind of thing from happening in the future.
    Mr. Cooper. With all due respect, it doesn't sound to me 
like you are taking responsibility, because aren't you the 
Deputy Secretary and haven't you been the Deputy Secretary for 
some time?
    Secretary Poneman. Yes, sir. And from the moment I heard 
about this incident, I have been doing everything I can in 
every dimension to make sure that nothing like this ever 
happens again. I do feel deeply responsible.
    Mr. Cooper. You have been doing everything you can, and the 
questions to my colleague, Ms. Sanchez, were submitted 5 months 
after the hearing testimony? The copy we got, you needlessly 
duplicated one question twice. Doesn't look like much effort 
was put into this. And I know this is just an exchange of 
paper, but----
    Secretary Poneman. Congressman----
    Mr. Cooper. Do you feel like you are taking responsibility?
    Secretary Poneman. Yes, sir, I do. I take responsibility 
for everything that happens in the Department and I am----
    Mr. Cooper. Has your pay been reduced? Are you threatened 
in any way? What sanctions have you faced?
    Secretary Poneman. Congressman, I am doing everything I can 
to address the problem, and I will do that as long as I am in 
this position. And I will be very open to working with this 
committee and all others to make sure that nothing like this 
can ever happen again.
    Mr. Cooper. But meanwhile, as the inspector general told us 
in his testimony, your Department is spending about a billion 
dollars a year securing various facilities, hiring 4,000 guard 
personnel through various devices, and in some places it is one 
prime contract, in some cases it is split two primes, and in 
some places it is a subcontract. There seems to be no rhyme or 
reason to this. But if you divide, you know, the salary 
component of that, $700 million by the 4,000 employees, that's 
$175,000 per guard. Where is this money going and what results 
are we getting for this? That is a lot of money, and my guess 
is the guards aren't actually being paid nearly that much. Who 
is making the difference?
    Secretary Poneman. Congressman, there are a number--I don't 
have the exact calculation you have before you--there are a 
number of both physical assets in terms of huge facilities with 
thick walls, BearCats and various perimeter fences and various 
security systems, all of which requires an investment.
    But to be clear, the money itself is not going to solve the 
problem if we don't have the clarity in the lines of 
responsibility and in the authorities that go with it and, 
frankly, the cultural shift that is required to go with it. It 
is not a problem that will be solved by dollars. And the 
dollars that are invested in it are very important, because we 
need to get the assets, both the human assets and the physical 
assets, but that's only part of the problem.
    Mr. Cooper. Trust me, I am not suggesting spending more 
money. I am asking what value the taxpayer got for this 
extraordinary outlay over many years. And this is, according to 
your own IG, money spent on employee compensation.
    Secretary Poneman. Congressman, we have large, large 
quantities of both highly enriched uranium and separated 
plutonium, all of which is extraordinarily sensitive. That 
material is very, very well defended. It is of absolute 
paramount importance.
    Mr. Cooper. It's well defended when an 82-year-old nun got 
into Y-12? How can you possibly say that?
    Secretary Poneman. Congressman, the episode that occurred, 
as we have repeatedly testified in this and the prior hearing, 
is absolutely unacceptable. It is a wakeup call. There are 
several----
    Mr. Cooper. Then how can you say it was well defended? It 
was not well defended. That is why we are having this hearing.
    Secretary Poneman. Congressman, what I am trying to say is 
that there are a number of additional layers of security. It is 
unacceptable that they penetrated the perimeter fence. That is 
unacceptable, a wakeup call. We are taking the appropriate 
actions. The concertina wire is around it. There are other 
additional layers, including, you know, military-style forces, 
including various physical impediments. And I can assure you 
that there are many more layers that are defending that very, 
very sensitive material.
    Mr. Cooper. So we really had nothing to worry about. There 
were many more layers of security left and it was all fine.
    Secretary Poneman. Congressman, that is not at all what I 
am saying. You have heard us from day one, Secretary Chu and I 
have been consistent, this was unacceptable. And, it is a 
shocking breach of the security that we thought was in place.
    That having been said, your specific question went to the 
actual material itself, and I am only saying, not that there is 
any reason for complacency, far from it, quite the opposite, 
but to say that we do have additional measures of protection 
that is needed for that material. It is unacceptable what 
happened, and we have to make sure that that part gets fixed as 
well.
    Mr. Cooper. Mr. Chairman, in all due respect to the 
witness, it still does not sound like he is really taking 
responsibility for this.
    Secretary Poneman. I want to be very clear, Congressman. I 
accept responsibility for this.
    Mr. Cooper. Well, what punishment have you suffered for it?
    Secretary Poneman. I am working----
    Mr. Cooper. Other than attending this hearing?
    Secretary Poneman. I am working on this problem, sir, as 
hard as I can.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
the former chairman of this subcommittee, Mr. Turner of Ohio, 
for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Poneman, I want to thank you for your efforts to 
try to address this. I happen to know that you are a very 
hands-on Secretary, you and I having worked together on an 
issue with respect to the Mound facility. I was very impressed 
by the fact that you do rise to a very hands-on level. So 
that's why I think this whole problem leaves most of us 
scratching our head, wondering: where are we and why do we have 
this circumstance?
    So I am going to ask you a couple questions that I think 
frame the topic in the level of oversight where we have 
concerns. So I am going to ask you a broad, basic question. Is 
there ever a situation where a security failure at one of the 
facilities protecting our nuclear infrastructure would result 
in the termination of an employee of DOE or NNSA due to their 
performance?
    Secretary Poneman. It could, sir. What we can do----
    Mr. Turner. I am sorry. So the answer then is yes?
    Secretary Poneman. The----
    Mr. Turner. Because it's a pretty direct question. I am not 
asking you is it in the realm of possibilities. I am asking 
you, is there ever a situation where a security failure at one 
of our--the protection of one of our nuclear facilities would 
result in the termination of an employee of DOE or NNSA due to 
performance? It's a yes-or-no question.
    Secretary Poneman. Congressman, if--it depends----
    Mr. Turner. There is no ``depend.'' It is like a----
    Secretary Poneman. No.
    Mr. Turner. Because it already says ``ever'', so ``ever'' 
encompasses the whole scope----
    Secretary Poneman. Yes.
    Mr. Turner [continuing]. Of possibilities. Is there ever a 
situation?
    Secretary Poneman. It could, yes.
    Mr. Turner. Yes. Okay.
    Now, in taking that broad statement where you have 
acknowledged that there is a situation where a failure could 
result in termination due to performance, I am then going to 
ask you the next step of that, because I am not just asking 
your opinion, because you are actually--you know, you are in 
the chain of--line of command here of understanding the 
execution of this.
    So would one of those situations be where all of the 
safeguards were down, where someone could get all the way into 
one of our buildings, and nobody does? What I am asking you in 
this, and I am going to be clear, we had a breach where people 
actually got all the way into this building. Right? All the way 
to the building.
    Secretary Poneman. To the building, sir.
    Mr. Turner. That is what I am saying, to the building. Is 
there ever a situation where someone would lose their job for 
performance where no one penetrated, there was no breach, but 
the safeguards were down that would have permitted it? Because 
that is certainly what I would consider to the level of a 
failure of performance.
    Secretary Poneman. Congressman, what I can't do is answer a 
hypothetical. It depends on----
    Mr. Turner. It is not hypothetical. It really is very, very 
clear. You have a job that has no margin of an error: protect 
these facilities. Right? And we only can protect these 
situations through the application of technology operated by 
people. And the people were, you know, we're subject to their 
performance as to whether or not it works.
    So if someone isn't performing and the system is down, even 
if there is no breach, but it is their responsibility and their 
fault that the system is down and someone could get all the 
way----
    Secretary Poneman. Right.
    Mr. Turner [continuing]. When I say ``into,'' I mean touch 
the building, not inside the building, is that enough for 
someone to be terminated due to performance?
    Secretary Poneman. Sir----
    Mr. Turner. Because I think, this committee thinks that if 
we have an agency that is governmental that has the 
responsibility for protecting these facilities and we have a 
system where those in charge think that you don't even have to 
do your job to keep your job, then we don't have something that 
is working. So it is a simple question. If the system goes down 
where someone could go in and touch the side of the building 
and no one does, it is not a real breach but the system has 
come down due to their performance, is that the type of lack of 
performance that should result in termination?
    Secretary Poneman. I can tell you that can and has resulted 
in removal from position.
    Mr. Turner. So the answer is yes?
    Secretary Poneman. I said removal from position. That is 
what we did.
    Mr. Turner. Well, that is not termination.
    Secretary Poneman. And that gets into a level of law and 
due process----
    Mr. Turner. So you are testifying before this committee 
today that if the entire security system of our nuclear 
infrastructure facilities went down on the perimeter of a 
building that allowed someone to go in and it was a result of 
their performance, it is not a terminable offense----
    Secretary Poneman. I did not say that----
    Mr. Turner [continuing]. Under your agency?
    Secretary Poneman. I did not say that, sir. I said we can 
remove them----
    Mr. Turner. Then please tell me the opposite----
    Secretary Poneman. I am telling you----
    Mr. Turner [continuing]. Because that has to be true. It 
has to be that it would result in someone losing their job. If 
not, we need to pass a law here. We need to, like, stop doing 
oversight and actually do legislation, because if you don't 
have performance to be able to protect the facility, then we 
don't really have protection, we don't have security. Is it a 
terminable offense--terminate-able offense?
    Secretary Poneman. You and I are both lawyers. You are 
asking a technical legal question. I want to make sure I am 
absolutely accurate----
    Mr. Turner. If you don't have clarity on this, then I think 
that this committee needs to put something in our next piece of 
legislation that absolutely makes it clear that if, due to the 
performance of individuals, that the security system fails, 
that it would be an offense resulting in termination, because 
that clarity, I think, certainly is with the American public.
    Secretary Poneman. Congressman, as I told Chairman Rogers 
and as I told you when you were chairman of this committee, we 
are always ready to work with you and with this committee to 
make sure we have the right kind of laws in place. I am not 
trying to be evasive. We moved the people out of the positions. 
There are due process protections. And if we can come back to 
it in more detail, there may be a very simple yes/no answer, 
but I am not acting as a lawyer today, and I don't want to give 
you an inaccurate----
    Mr. Turner. I wasn't asking you a lawyer question, I was 
asking you a scope of responsibility and authority question. I 
mean----
    Secretary Poneman. And in that, I am very confident----
    Mr. Turner. It shouldn't require lawyers to understand 
whether or not, if there is a failure of performance to that 
level, that that would be an offense for which there would be 
termination.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    I am going to clarify with the Secretary. Is the due 
process you are talking about, is that the union contract?
    Secretary Poneman. No. I am talking about the procedural 
due process that any Federal employee is entitled to when he is 
facing some----
    Mr. Rogers. Well, they can have that due process in 
response to their termination, can't they? I mean, you 
terminate them, and then they have got the due process to 
appeal it----
    Secretary Poneman. We have to----
    Mr. Rogers [continuing]. And try to fight that termination. 
But it just seems to me like you are claiming that they have 
got a right to go through all this before you can terminate 
them.
    Secretary Poneman. Well, what we can do and what we did do, 
Mr. Chairman, was remove these people from the responsibility 
for anything having to do with security immediately, pending 
finding out what further disciplinary action was available, and 
that disciplinary action is subject to due process.
    Mr. Rogers. Well, I am a recovering attorney, too. I think 
that due process would not impede firing people who would let 
an 82-year-old woman get into a nuclear facility.
    But having said that, the chairman recognizes the gentleman 
from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And I share the 
chagrin of the former chairman and the current chairman. It 
seems to me that with the breaches that occurred, that there 
should have been terminations. Just shifting persons around 
doesn't really achieve the level of accountability of something 
as extraordinarily important. And I have the perception of 
having actually worked at the Savannah River Site, and so by 
working there, I actually had a good feeling about the 
perimeter security, the persons who were monitoring and indeed 
acting, and I felt secure. And I know that the people who 
worked there, lived there, raised their families there, retire 
there feel secure.
    But I am concerned that I have also seen studies that there 
is a culture with DOE, with NNSA that has not stressed 
security. And so how can we reassure people who live in these 
communities that indeed a culture of lack of appreciation of 
security is being addressed?
    Secretary Poneman. It is a great question, Congressman. You 
can reassure them by saying that the top three security 
officials at the headquarters responsible for Y-12 at that time 
were removed from their positions, that the two top Federal 
officials at the site were removed from their positions, that 
the contractor that actually had the boots-on-the ground 
professional force was terminated full out, that the top two 
officials at the management and operations facility, they were 
also retired and taken out of the picture. Everybody in that 
chain of command, from the individual responders and to the 
senior officials responsible for security specifically at that 
site, were removed.
    At the same time, that would not be enough. We have 
undertaken the organizational and structural changes, we have 
replaced all the cameras, we have put concertina wire around 
the whole facility, all the Perimeter Intrusion Detection and 
Assessment System (PIDAS) improvements, the central alarm 
station has been upgraded. All of the things we should have 
known about but found out about through this unfortunate and 
terrible incident, we have taken those steps. So I do think 
that the American people can take assurance from that.
    Mr. Wilson. Administrator Miller.
    Ms. Miller. I just support what the Deputy Secretary has 
said. First and foremost, culture is going to be affected by 
the leadership and management and their attitudes toward 
security, safety, and everything else that we do. And we are 
looking very hard and have been making serious changes within 
the NNSA to directly address leadership and management issues 
as they affect security, safety, and everything else we do.
    Mr. Wilson. And I am equally concerned that there seems to 
be a lot of reliance on self-assessment by contractors, that 
the overseers are depending on the contractors. Is that being 
changed?
    Secretary Poneman. That is being addressed, sir. And I 
think that did contribute to the problems that we faced before. 
General Finan's recommendation is, we believe, a sound one, 
which is to start with the basis of the contractor's 
assessment, but then instead of having that assessed in the 
field where there is a possibility of the Feds being too close 
to the contractors, that function is being clearly vested in 
the headquarters organization, the NA-70 organization, and then 
that is going to be further subject to further overview by the 
Health, Safety, and Security Office.
    Mr. Wilson. And, Ms. Miller.
    Ms. Miller. Yeah. I would like to also emphasize, we have 
the sites now reporting directly to the Administrator, and in 
this way, we expect security, as well as other things, but 
security to be a clear line of accountability from the 
Administrator through to the site manager, the sites, as the 
implementers of the policy that the security policy 
organization, that the Deputy Secretary was just referring to, 
those policies and orders that they issue are then--which is 
their responsibility, and it is also their responsibility to 
assess the performance of the sites in implementing those 
orders--is just as clear that the line of accountability for 
implementing it at the site goes directly from the site to the 
Administrator.
    Mr. Wilson. And related to that is, there was the 
recommendation that headquarters staff visit sites and rotate 
between the sites. And is that being done?
    Ms. Miller. Headquarters staff is now both in the 
implementing side, as well as in the policy and assessment 
side, regularly scheduled and going to sites. And as well as 
the rotations are, we have put this in throughout the NNSA. We 
are very conscious of the fact that people staying in one place 
for too long may lead to people becoming complacent.
    Mr. Wilson. And thank you both. And I do know that when the 
headquarters staff visits, it creates an extraordinary level of 
attention. Thank you.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes my friend and colleague from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Secretary Poneman, I want to try to get three questions in 
here, if I can quickly. First, I have had the opportunity to 
see hearings on this before, some in a private setting, and so 
I have probably already expressed the commensurate level of 
bewilderment. And, you know, I don't seek to patronize anyone 
to remind us all that the materials that are kept in these 
facilities are, you know, are highly technically challenging to 
create, and yet to weaponize them is a much lesser difficulty 
technologically to do. So, I mean, the implications here are 
pretty profound, and I think everyone knows that.
    I guess quickly one question I wanted to ask. It seems like 
the contractors that had reported these lapses in safety 
precautions were treated very differently than those they 
reported to, who in some cases ignored their warnings. Is that 
your perspective?
    Secretary Poneman. I am not sure, Congressman, I am 
tracking which contractors you are referring----
    Mr. Franks. Well, the contractors, on-the-ground 
contractors that were there that were watching the cameras. I 
am told that there was a significant reporting on their behalf 
prior to these incidents, saying, you know, that we had some 
technical challenges and that we really weren't up to----
    Secretary Poneman. Yes, sir. Some of those deficiencies had 
been earlier noted in earlier reports. That is true.
    Mr. Franks. And yet they were, you know, handled pretty 
roughly, it sounds like, and the folks that they reported to 
weren't. And I will leave that there, sir, because I want to 
get to another.
    The previous panel emphasized sort of the line of 
responsibility. And I think that that is something that is 
almost ubiquitous throughout the entire human dynamic. You 
know, somebody has got to have responsibility. Everybody's 
responsibility is nobody's responsibility. But it appears to me 
that DOE and the NNSA have not really addressed that 
effectively within NNSA, because DOE continues to have an 
oversight office under HSS, and NNSA now has a split security 
between an office responsible for policy and oversight and 
another office that is responsible for program execution.
    And I am just wondering, how do all these DOE offices 
ensure that there is accountability for making sure that the 
security program is properly executed at these DOE sites?
    Secretary Poneman. Okay. So I now understand the first 
part, and I will just say very quickly, both contractors 
involved had their leadership removed. So they both paid the 
appropriate accountability price, just on that first part of 
your question. And I know you wanted to get to the second one.
    On the second one, it is a very good question, and as you 
just heard the Acting Administrator say, we believed that part 
of the problem here, as General Finan pointed out, was that 
there was this confusion. The clarity of the line management 
down through this infrastructure and operations, that's the 
line management. They are responsible for execution. They had 
to take away the interference with that line management was 
coming out of the NA-70 nuclear security organization. So they 
just make the plans and evaluate it, but that is all inside 
NNSA. And so to have a further check, because these materials 
are so sensitive and do need to be secure, is to have a check 
on the check by having HSS perform an outside independent 
oversight role outside of the National Nuclear Security 
Administration.
    Mr. Franks. But just a yes or no quickly. Is it your 
testimony before this committee that the line of 
responsibility, that any ambiguities there have been dealt 
with?
    Secretary Poneman. We are in the process of implementing 
General Finan's recommendations. I would like to come back to 
this committee when I can tell you that we feel like----
    Mr. Franks. To me, Mr. Chairman, that seems seminal to this 
whole discussion.
    Secretary Poneman. We agree.
    Mr. Franks. Let me shift gears quickly, and I will ask both 
of you, because I will run out of time here and you both can 
answer the question still. When you think about these potential 
breaches of security in the future, you know, there are all 
kinds of issues out there, and I am just wondering one specific 
question, and I would welcome you to mention any others that 
are on your mind. But, you know, there is a significant 
increase in technology across the world with intentional 
electromagnetic interference, or these EMP [electromagnetic 
pulse] device capability, which seems to me that it could 
really put these facilities at risk, and even further, you 
know, the potential of a major EMP event, either geomagnetic 
disturbance or a high-altitude nuclear burst.
    Can you tell me, are we protecting our critical defense 
apparatus like the Y-12 facility against these three prongs of 
EMP: the E1, E2, and E3?
    Secretary Poneman. Congressman Franks, I am well aware of 
your thought leadership on this challenge. I have talked to 
former Secretary Jim Schlesinger and Mr. Ikle, may he rest in 
peace, and what I am here to tell you is that we are very 
focused on addressing all of those kinds of threats, which 
don't, as you well know, affect only Y-12, but frankly 
everything, far, far beyond that. We would love to work more 
closely with you on this subject. The executive orders and the 
Presidential Directive 21 that the President just issued 
addressed exactly this kind of problem. It is something that is 
a huge problem. It is going to take a lot of work to get into a 
safe place, but we are very focused on it, sir.
    Mr. Franks. All right. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Before I go to Mr. Garamendi, I want to clarify. You stated 
a minute ago that you are in the process of implementing 
General Finan's findings. That is just at NNSA, that is not at 
DOE. What are you doing at DOE to deal with the problem that 
Mr. Franks just addressed?
    Secretary Poneman. The problem that Mr. Franks just 
addressed actually goes well beyond NNSA and will require 
various parts of our organization, including our Chief 
Information Officer, which has technical capacity to deal with 
the EMP issues.
    Mr. Rogers. No, no. I am talking about his earlier issue 
dealing with the chain of command on reports by the 
contractor----
    Secretary Poneman. Okay.
    Mr. Rogers [continuing]. Of deficiencies that are not being 
remedied.
    Secretary Poneman. Mr. Chairman, those issues are among 
those that have been addressed by what we call the three wise 
men, of whom you had one here testifying this morning. We are 
having internal discussions precisely on this question of how 
to make sure that the larger DOE organization works effectively 
in ensuring the same kind of oversight that we are talking 
about inside of NNSA, because as you know, Mr. Chairman, there 
is some Category 1 material that is outside of the NNSA and we 
have to make sure it is all well protected.
    One thing that has been done is there was some confusion as 
between overall directives that are departmental-wide and those 
directives that are specific to NNSA. General Finan's 
recommendation, which we are following, says we need to be 
clear that the DOE directives are those that are binding is the 
baseline. Anything beyond that, because of the special needs 
and requirements of NNSA, should be done as only a way to 
augment or strengthen and should not be any way to confuse or 
distract from the overall directive that governs the whole 
Department.
    Mr. Rogers. The gentleman, Mr. Garamendi, is recognized for 
5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    I appreciate the testimony both of you have given, and I 
was reading your testimony also. While you have explained 
verbally and in some writing the organizational structure, it 
is not clear to me exactly how that chain of command and 
organizational structure is actually in place; therefore, I 
would appreciate it if you could deliver to our committee staff 
a detailed organizational chart----
    Secretary Poneman. Absolutely.
    Mr. Garamendi [continuing]. With the accompanying job 
descriptions.
    Secretary Poneman. Happy do it, sir.
    Mr. Garamendi. I think that would be helpful, at least for 
me, to understand the words that you have said and how it works 
out. From the previous questions asked, it is not just within 
the NNSA, it is also within the Department and the 
organizational structure therein. So if you would do that, I 
would appreciate it.
    Secretary Poneman. We would be very happy to provide this.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Garamendi. That would at least allow me the opportunity 
to understand more completely your testimony. And I thank you.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    I want to follow up. We heard in the earlier panel of all 
the studies over the years. Why do you think it is that these 
longstanding, well-documented deficiencies in security at this 
particular facility were allowed to go on so long?
    Secretary Poneman. Well, the things that we have found 
since the episode, Mr. Chairman, were that, even though some of 
these things were noticed, that our internal reporting chain 
was broken, was the phrase that I think was used in some of the 
reviews. And so you can rest assured that if we had known what 
was actually the situation on the ground----
    Mr. Rogers. So you weren't aware of any of those studies 
from 2002, 2005----
    Secretary Poneman. Well, I thought you were asking 
specifically about the----
    Mr. Rogers. No. I am talking about the 10 years, the 4 
studies over 10 years, with General Finan's been the most 
recent. The three prior to that, were you aware of those 
studies and their findings?
    Secretary Poneman. After the----
    Mr. Rogers. Admiral Mies, yeah.
    Secretary Poneman. After the Y-12 episode, I became aware. 
I actually----
    Mr. Rogers. So before that, you weren't aware of them?
    Secretary Poneman. Well, the one study I was aware of, and 
I don't know if this is one of the ones that you are referring 
to, I helped former Senator Baker and Mr. Hamilton look at the 
episode of the lost hard drive at Los Alamos, and I was aware 
of that one. And the thing that we found there was, in fact, 
the same kind of problem of division of the security mission 
from the line organization was a source of challenge. What I 
did not realize was that that particular problem was still 
persisting to the degree that it obviously was.
    Mr. Rogers. Why? Why were you not aware?
    Secretary Poneman. I was not aware that the cultural and 
sort of the situation at Y-12, which we found out post hoc, was 
occurring at the time, because it had not come to my attention. 
I can assure you if it had, I would have acted.
    Mr. Rogers. Who do you think should have reported that to 
you? These were general officers who were doing these studies, 
very high ranking, important, thoughtful people who were making 
these reports. Were they just to be put on the shelf or were 
they to be given to policymakers who could implement changes?
    Secretary Poneman. I would have to know, sir, which studies 
you are referring to and if they were done during----
    Mr. Rogers. Admiral Mies in 2005, for example.
    Secretary Poneman. Yeah. Sir----
    Mr. Rogers. Who should have told you about that?
    Secretary Poneman. I don't know who would have told me 
about a 2005 report.
    Mr. Rogers. Should Ms. Miller have told you about it?
    Secretary Poneman. Sir, it was a 2005 report, and I just 
don't know what happens in terms of the shelf life of these 
reports and when they get repeatedly briefed. We are responding 
to the responsibilities we have got. Anything that we have done 
to look at the problem, we obviously have to be fully 
accountable for. It is always, always a good thing to go back 
and see what has been done through time. That is why when this 
episode happened, we did look at those reports and we found a 
number of things that need to be addressed.
    Mr. Rogers. Let me ask this. Ms. Miller, who do you report 
to on security matters? Who is your immediate superior?
    Ms. Miller. My immediate superior is the Deputy Secretary.
    Mr. Rogers. Okay. Were you aware of Admiral Mies' study?
    Ms. Miller. I became aware of Admiral Mies' study. I joined 
the NNSA in 2010.
    Mr. Rogers. 2010.
    Ms. Miller. Uh-huh.
    Mr. Rogers. And when you arrived in 2010, how long was it 
before you became aware of Admiral Mies' study?
    Ms. Miller. I knew of Admiral Mies' study a little bit 
before then. I did not become aware of the contents of it for 
probably the first year that I was there.
    Mr. Rogers. And so you knew about it by 2011, midyear.
    Ms. Miller. Uh-huh.
    Mr. Rogers. Did you take any action to inform Secretary 
Poneman that you have a cultural problem that has got to be 
addressed?
    Ms. Miller. I did not take any actions to inform Secretary 
Poneman. I did begin to take actions within the NNSA to address 
cultural problems that, again, affect----
    Mr. Rogers. What actions specifically? Did you fire 
anybody?
    Ms. Miller. No. No.
    Mr. Rogers. Let me ask this.
    Ms. Miller. There were no firing offenses.
    Mr. Rogers. The chief of security for DOE has been there 
for 20 years. Clearly, given these studies that I have referred 
to--and what were they? The Commission on Science and Security 
did one in 2002, Admiral Mies in 2005. And, yeah, there was a 
couple others we went through in our earlier panel. But my 
point is, so your chief of security clearly should have been 
handed a copy of those studies, wouldn't you think, Secretary 
Poneman?
    Secretary Poneman. Presumably when they came out, that 
would have happened.
    Mr. Rogers. That would have been on his watch to know we 
have got an installation under my domain of responsibility and 
we now have a study that says there is problems. Would that 
make sense, that he would get a copy of it?
    Secretary Poneman. I would presume that all of those 
studies you referred to were reported to the Department 
contemporaneously.
    Mr. Rogers. Yeah. Would you turn your microphone on, 
please?
    Secretary Poneman. Sorry. I would assume, sir, that those 
reports when they came out would have been reported to the 
Department contemporaneously.
    Mr. Rogers. Right. And the person, the relevant person 
would have been the chief of security, wouldn't it be?
    Secretary Poneman. It certainly would have been relevant. 
Of course, the organization was different at that time, and I--
--
    Mr. Rogers. Well, it doesn't matter. Chief of security is 
over security over all your installations. Isn't that correct? 
The DOE chief of security.
    Secretary Poneman. What I am saying is I don't know who was 
the chief of security in 2002, 2005, et cetera. I don't----
    Mr. Rogers. I am telling you the same guy has been there 
for 20 years. The guy who is the chief of security now has been 
the chief of security at the Department of Energy for 20 years. 
All of these installations fall under his responsibility. My 
thinking is that if a report comes out and says, we have a 
flawed culture of security problems at Y-12 comes out, that 
should have been presented to the chief of security. Now, no 
remedies were taken to the equipment and the other deficiencies 
in that system. He wasn't fired. Who does the chief of security 
at DOE report to?
    Secretary Poneman. The chief of security reports to the 
Secretary and to the Deputy Secretary.
    Mr. Rogers. Okay.
    Secretary Poneman. But that person, just to be clear, Mr. 
Chairman, does not have line authority over the sites. I am 
not----
    Mr. Rogers. Why not?
    Secretary Poneman. Because that`s the nature of the 
problem. In other words, we need to make sure that the line of 
authority runs straight down through the----
    Mr. Rogers. Who is responsible for establishing line 
authority within the Department of Energy?
    Secretary Poneman. The Secretary.
    Mr. Rogers. Was he fired?
    Secretary Poneman. No, sir.
    Mr. Rogers. I recognize the gentleman from Tennessee, Mr. 
Cooper, for any additional questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I think we are talking about HSS.
    Secretary Poneman. Yes.
    Mr. Cooper. The Office of Health, Safety, and Security. I 
think we are talking about Glenn Podonsky, who has been there 
some 29 years. I was interested in Mr. Podonsky, as you point, 
because of a news article dated February 22, 2013, just a few 
days ago, in which he said--at least he is quoted in the 
article as saying--he believes that the nuclear arms complex 
operated better while directly under the Energy Department's 
defense programs prior to the nuclear agency's formation in 
2000. And I think by the nuclear agency, he means NNSA. And I 
am not faulting Ms. Miller, because she is acting and new, but 
this is a pretty amazing charge from somebody that you praise 
and trust. And he might not have line authority, but has been 
there a long time, knows a lot of stuff, you all rely on his 
viewpoint a lot, and he is wondering whether NNSA should even 
have jurisdiction here.
    Secretary Poneman. That obviously----
    Mr. Cooper. And we have taken a step backwards since 2000.
    Secretary Poneman. Yeah. Obviously, Congressman, that does 
not reflect the view of the Department of Energy. We clearly 
believe that the structure of having NNSA as the semiautonomous 
part of the Department is the right structure. We are fully on 
board with that, and there is no question about that. I also 
was not present, I saw the news reports, obviously, but that is 
not obviously reflecting the view of the Department.
    Mr. Cooper. Well, let's forget politics for a second and 
the view of the Department, because right now the Department 
doesn't have a lot of credibility on the security issue. Here 
is a guy who has been a loyal public servant for 29 years who 
is trying to express a viewpoint, and it might be politically 
correct, it might not be officially, you know, supported by the 
top brass, but this is, you know, part of your organization 
that you respect and trust, this is a respected individual who 
is questioning even the function of NNSA. And, of course, a 
commission will be established to look into lots of NNSA issues 
anyway. This is a problem.
    Secretary Poneman. Well, Congressman, we have, all of us, 
thought long and hard exactly about what the best way to do 
security is going forward out of this episode. We will continue 
to do that. We are going to take advantage of the great wisdom 
of the three experts. And we always encourage a continued 
questioning attitude and not to be complacent about where we 
are. We have no grounds for complacency. So we are going to 
keep at working as hard as we can to get this problem fixed.
    Mr. Cooper. Why do you deserve the chance to keep working 
at the problem?
    Secretary Poneman. I don't think, sir, in terms of anything 
I deserve. I am just trying to address a problem, and I feel 
that that is my responsibility and I am going to keep working 
at that as hard as I can. I don't think of it in terms of what 
I deserve or don't deserve.
    Mr. Cooper. But in response to Mr. Turner's question 
earlier, it seemed like you had a hard time thinking of 
circumstances that might even lead to, say, Air Force levels of 
taking responsibility.
    Secretary Poneman. I don't mean to imply that. I strongly 
believe in accountability. We took every step that we could to 
make sure that the problem could not recur by changing the 
structure, by changing the culture and taking those steps, and 
by holding the individuals accountable. And, again, sir, we 
will continue to do everything we can to earn the confidence of 
this committee and the American people in that measure.
    Mr. Cooper. Maybe you could answer for the record what the 
average guard or protective force member makes when you divide 
out, you know, there is $175,000 going to each position under 
DOE leadership, how much take-home pay, how many benefits are 
these folks actually getting out of this amazing sum of money. 
They are paid like Federal judges, they are paid like 
Congressmen, yet these poor folks are not getting that sort of 
benefit.
    Secretary Poneman. Congressman, I have not seen the math. 
My hunch is that that number folds in a lot of physical plant 
and so forth. But it is absolutely a fair question to ask, and 
we will get you--and I assure you it won't be 5 months, I don't 
know how that happened--we will get that promptly to you, sir.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Cooper. Thank you.
    Mr. Rogers. I thank the gentleman.
    Mr. Wilson, you don't have any more questions?
    The last thing I wanted to point out was last week the DOE 
chief security officer told a reporter that the nuclear 
enterprise, quote, ``wasn't working badly in the 1990s before 
NNSA was formed,'' and that we should just abolish NNSA and go 
back to having everything DOE. But then we look back, and in 
1999 a report by President Clinton's Foreign Intelligence 
Advisory Board said that DOE, quote, ``embodied science at its 
best and security at its worst.'' Highlighting a string of 
recurring security problems that DOE had failed to correct in 
the 1990s, the Board described DOE as a ``dysfunctional 
bureaucracy that has proven it is incapable of reforming 
itself.''
    The thing that I hope you take away from this, Mr. 
Secretary, is you have got to be capable of reforming yourself. 
I want you to recognize we are as serious as a heart attack 
about what has just happened here and staying after it, and we 
expect it to be remedied. That doesn't just mean the NNSA. That 
also means the Department of Energy. And we want to know 
specifically that you are willing to terminate people that 
aren't doing their job. It sounds to me like this chief 
security officer might be one of the folks that ought to be on 
your list to look at.
    But we are looking for serious reforms and line 
responsibilities so that if--and I hope we never do have 
another incidence like this, but if we do, you can show us or 
we can see exactly who was responsible and if they were dealt 
with in a prompt and appropriate manner.
    Secretary Poneman. Mr. Chairman, first of all, as I said in 
my opening statement, we not only accept, but we welcome 
working with you and this committee on these problems in 
exactly that dimension.
    Number two, we very much agree--obviously there are 
continuing concerns we need to address--we completely agree 
that accountability is a critical part of fixing the problem. 
However, we don't just have a people problem. We also have a 
structural problem. We need to fix that. We have a cultural 
problem. We need to fix that. Not to say we shouldn't fix all 
of them. We do. We are as serious as a heart attack as well. I 
am just saying that we need to work on all parts of the 
problem: accountability, culture, clarity of lines of 
responsibility, authorities that go with that. And, again, with 
your help, hopefully we will get to the place where we never do 
experience this kind of episode again, because it is something 
that is absolutely, as we have said from day one, unacceptable.
    Mr. Rogers. Thank you.
    Several members went back after the last series of votes. 
If there are any members who have additional questions they 
would provide in writing, we will keep the record open for 10 
days. I would ask you if any members do submit questions to you 
in writing, that you respond to those in writing in a timely 
manner.
    Thank you for your time and attention. This hearing is 
adjourned.
    Secretary Poneman. Thank you.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 28, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9996.001
    
    [GRAPHIC] [TIFF OMITTED] T9996.002
    
    [GRAPHIC] [TIFF OMITTED] T9996.003
    
    [GRAPHIC] [TIFF OMITTED] T9996.004
    
    [GRAPHIC] [TIFF OMITTED] T9996.005
    
    [GRAPHIC] [TIFF OMITTED] T9996.006
    
    [GRAPHIC] [TIFF OMITTED] T9996.007
    
    [GRAPHIC] [TIFF OMITTED] T9996.008
    
    [GRAPHIC] [TIFF OMITTED] T9996.009
    
    [GRAPHIC] [TIFF OMITTED] T9996.010
    
    [GRAPHIC] [TIFF OMITTED] T9996.011
    
    [GRAPHIC] [TIFF OMITTED] T9996.012
    
    [GRAPHIC] [TIFF OMITTED] T9996.013
    
    [GRAPHIC] [TIFF OMITTED] T9996.014
    
    [GRAPHIC] [TIFF OMITTED] T9996.015
    
    [GRAPHIC] [TIFF OMITTED] T9996.016
    
    [GRAPHIC] [TIFF OMITTED] T9996.017
    
    [GRAPHIC] [TIFF OMITTED] T9996.018
    
    [GRAPHIC] [TIFF OMITTED] T9996.019
    
    [GRAPHIC] [TIFF OMITTED] T9996.020
    
    [GRAPHIC] [TIFF OMITTED] T9996.021
    
    [GRAPHIC] [TIFF OMITTED] T9996.022
    
    [GRAPHIC] [TIFF OMITTED] T9996.023
    
    [GRAPHIC] [TIFF OMITTED] T9996.024
    
    [GRAPHIC] [TIFF OMITTED] T9996.025
    
    [GRAPHIC] [TIFF OMITTED] T9996.026
    
    [GRAPHIC] [TIFF OMITTED] T9996.027
    
    [GRAPHIC] [TIFF OMITTED] T9996.028
    
    [GRAPHIC] [TIFF OMITTED] T9996.029
    
    [GRAPHIC] [TIFF OMITTED] T9996.030
    
    [GRAPHIC] [TIFF OMITTED] T9996.031
    
    [GRAPHIC] [TIFF OMITTED] T9996.032
    
    [GRAPHIC] [TIFF OMITTED] T9996.033
    
    [GRAPHIC] [TIFF OMITTED] T9996.034
    
    [GRAPHIC] [TIFF OMITTED] T9996.035
    
    [GRAPHIC] [TIFF OMITTED] T9996.036
    
    [GRAPHIC] [TIFF OMITTED] T9996.037
    
    [GRAPHIC] [TIFF OMITTED] T9996.038
    
    [GRAPHIC] [TIFF OMITTED] T9996.039
    
    [GRAPHIC] [TIFF OMITTED] T9996.040
    
    [GRAPHIC] [TIFF OMITTED] T9996.041
    
    [GRAPHIC] [TIFF OMITTED] T9996.042
    
    [GRAPHIC] [TIFF OMITTED] T9996.043
    
    [GRAPHIC] [TIFF OMITTED] T9996.044
    
    [GRAPHIC] [TIFF OMITTED] T9996.045
    
    [GRAPHIC] [TIFF OMITTED] T9996.046
    
    [GRAPHIC] [TIFF OMITTED] T9996.047
    
    [GRAPHIC] [TIFF OMITTED] T9996.048
    
    [GRAPHIC] [TIFF OMITTED] T9996.049
    
    [GRAPHIC] [TIFF OMITTED] T9996.050
    
    [GRAPHIC] [TIFF OMITTED] T9996.051
    
    [GRAPHIC] [TIFF OMITTED] T9996.052
    
    [GRAPHIC] [TIFF OMITTED] T9996.053
    
    [GRAPHIC] [TIFF OMITTED] T9996.054
    
    [GRAPHIC] [TIFF OMITTED] T9996.055
    
    [GRAPHIC] [TIFF OMITTED] T9996.056
    
    [GRAPHIC] [TIFF OMITTED] T9996.057
    
    [GRAPHIC] [TIFF OMITTED] T9996.058
    
    [GRAPHIC] [TIFF OMITTED] T9996.059
    
    [GRAPHIC] [TIFF OMITTED] T9996.060
    
    [GRAPHIC] [TIFF OMITTED] T9996.061
    
    [GRAPHIC] [TIFF OMITTED] T9996.062
    
    [GRAPHIC] [TIFF OMITTED] T9996.063
    
    [GRAPHIC] [TIFF OMITTED] T9996.064
    
    [GRAPHIC] [TIFF OMITTED] T9996.065
    
    [GRAPHIC] [TIFF OMITTED] T9996.066
    
    [GRAPHIC] [TIFF OMITTED] T9996.067
    
    [GRAPHIC] [TIFF OMITTED] T9996.068
    
    [GRAPHIC] [TIFF OMITTED] T9996.069
    
    [GRAPHIC] [TIFF OMITTED] T9996.070
    
    [GRAPHIC] [TIFF OMITTED] T9996.071
    
    [GRAPHIC] [TIFF OMITTED] T9996.072
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 28, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9996.073
    
    [GRAPHIC] [TIFF OMITTED] T9996.074
    
    [GRAPHIC] [TIFF OMITTED] T9996.075
    
    [GRAPHIC] [TIFF OMITTED] T9996.076
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 28, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. COOPER

    Mr. Poneman. The average gross wages and fringe benefits for a 
guard or Protective Force member at Y-12 is $88,000. Actual take home 
pay will vary by individual based upon payroll deductions and hours 
worked. [See page 30.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI
    Mr. Poneman. Please find attached an organization chart of both 
organizations. We've also included the names of the key NNSA leadership 
team. [See page 26.]
    [The information referred to can be found in the Appendix beginning 
on pages 111-114.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 28, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. General Alston, you recognized human capital 
limitations as a contributing factor to the event. What can Congress 
do, if anything, to enhance human capital at NNSA as it pertains to 
security?
    General Alston. Recognizing that the July 2012 Y-12 security 
failure had more to do with ineffective oversight and a culture that 
readily accepted security deficiencies rather than human capital 
weaknesses, it's my view that NNSA and DOE did not assign sufficient 
value to security expertise when it made staffing decisions. As a 
result, there is no ready pipeline of leaders with appropriate security 
expertise. This condition is exacerbated by personnel practices that 
did not circulate security leaders between the HQ and the sites.
    The quality of experience and expertise across our national nuclear 
enterprise has been an area of increasing concern, perhaps since the 
end of the Cold War. The Congress in the 1997 and 1998 National Defense 
Authorization Acts established a Commission on ``Maintaining United 
States Nuclear Weapons Expertise,'' led by ADM (ret) Hank Chiles. ADM 
Chiles led a similar Defense Science Board effort in 2008. Neither of 
these efforts highlighted nuclear physical security expertise as a 
focus area, but they emphasize the overall importance of expertise 
throughout the nuclear enterprise. All other things being equal, I 
personally would be inclined to hire someone who has secured nuclear 
materials before I would hire one without that background. The size of 
our nuclear enterprise continues to expose a keen personnel 
vulnerability across all disciplines that should be driving focused 
human capital development plans. The benefits include good daily 
operations, strong crisis management competencies at upper levels and a 
self-sustaining community of experts.
    Mr. Rogers. General Alston, do you, Mr. Augustine, and Dr. Meserve 
believe the confused lines of responsibility and authority for security 
are just within NNSA, or do they extend to security and leadership 
organizations within DOE as well?
    a. You are your fellow reviewers have suggested that security 
operations with DOE and NNSA need to be reorganized in order to re-
align authority and responsibility. What guidelines should be followed 
in aligning and assigning authority and responsibility? Is it your 
sense that these guidelines are being followed?
    General Alston. The confused lines of responsibility and authority 
for security at the time of our project were within the contractor 
relationships at the sites, NNSA and DOE.
    a. Match authority and responsibility at the right level.
    --For example, at Y-12, the site Maintenance and Operations 
contractor was responsible for security infrastructure, such as 
security camera maintenance, while the security contractor was 
responsible for providing ready protective forces. This split 
responsibility for security tools and security pros contributed to the 
atmosphere that tolerated enduring infrastructure deficiencies.
    --Additionally, empower the NNSA rep overseeing site security with 
sufficient authority to hold him/her accountable appropriately for 
local performance failures, as necessary.
    --Finally, establish who is accountable at the headquarters level 
for day-to-day security operations. Who is accountable to track and 
eliminate security deficiencies? Who is accountable for security system 
developmental and operational testing? To name just a few critical 
elements we had trouble resolving during our study.
    Scrub department governance and eliminate inadequate, conflicting 
and redundant sources of security policy.--For example, securing 
Category 1 material at SRS should require the same measures as securing 
Category 1 material at Y-12.
    Establish clear organizational lines from the field through the 
senior levels at the headquarters that not only enable the two points 
above, but also focus on ensuring effective 2-way communication 
throughout the organization.
    I do not have a sense whether or not these guidelines are part of 
DOE/NNSA security initiatives.
    Mr. Rogers. General Alston, your letter to Secretary Chu says 
``there is a perception that corporate security policy is being written 
from inspection results.'' Mr. Augustine noted that inspections and 
assessments inappropriately focus on compliance with standards, and not 
on security effectiveness or performance. He concluded that ``what is 
needed is not more inspections but better inspections.'' Do you agree 
with Mr. Augustine on this point?
    a. To what extent do you believe that oversight activities should 
also be standardized and/or centrally directed?
    b. Would you please compare and contrast how the Department of 
Defense conducts inspections and writes security policy with how DOE 
and NNSA do?
    c. How should oversight of security operations be conducted? How 
would you modify the DOE/NNSA inspection and oversight approach to make 
it better?
    General Alston. I absolutely agree with Mr. Augustine. Well-focused 
inspections, at smart intervals, consistently and appropriately 
evaluating compliance and performance against clearly established 
standards provide both local leadership and NNSA and DOE ``snapshot'' 
indicators of site competency. As a part of a comprehensive set of 
indicators that include daily performance metrics, resourcing levels, 
and several more elements to complete the readiness picture, a sound 
inspection process is vital.
    a. Independent oversight of activities involving nuclear materials 
is essential due to the extraordinary safety, security and geopolitical 
nature of nuclear weapons and related components. High standards are 
established and their compliance must be verified. The most senior 
accountable overseer must have the means to assure subordinate elements 
are in compliance with standards and can perform critical aspects of 
the mission. Therefore, the Secretary of Energy requires an independent 
inspection apparatus. The NNSA Administrator also needs to ensure 
compliance with these same high standards. Whether or not the 
Administrator of this semi-autonomous agency requires his/her own 
independent inspection apparatus should be evaluated.
    Common standards must be applied in a common way in the field and 
must be inspected in a common way by the inspection team. This has the 
benefit of enabling senior leaders to calibrate compliance, 
preparedness and overall competency through inspection results they can 
have confidence in. Additionally, consistent inspections should serve 
the purpose of reinforcing universal expectations by field elements 
that clear standards will be evaluated in consistent ways. Without 
consistency in evaluation, trust can break down between the HQ and the 
field and sites will fear the next inspection will be less about 
standards and more about inspection team whim. Unjustified policy 
revisions can also creep into the process as a result of poorly 
organized and executed inspections.
    b. The DoD depends both on the Services and the Defense Threat 
Reduction Agency to conduct inspections. The vast majority of nuclear 
expertise is created at the operating unit level and from this initial 
development, the substantial oversight demand signal is generated by 
Inspector General teams at every nuclear Major Command in the AF (that 
would be 5 AF IG teams, plus the AF Inspection Agency), plus, the 
Services feed nuclear expertise to DTRA and Combatant Commander 
inspection organizations (small though they may be). I lack personal 
experience to discuss Navy processes, so I'll stick to the AF. Nuclear-
related policy is written at the Office of the Secretary of Defense 
level by functional experts and that policy is applied to the AF at the 
Air Staff level by the AF functional experts: personnelists, manpower, 
intelligence, operations, logistics, supply, security, medical, etc. 
Functional experts at both the Air Staff and the Major Command level 
establish what should be inspected and go so far as to write the 
checklists that are issued to the inspection teams. The AF performs a 
variety of inspections that affect nuclear-equipped units, but the most 
relevant nuclear-related inspections include the Nuclear Surety 
Inspection and the Operational Readiness Inspection. Both types have 
compliance and performance-based elements. Additionally, subordinate 
units have self-inspection processes, local exercises, written and oral 
tests. Strategic Command also conducts major large scale exercises.
    Our relatively short duration study of security across DOE did not 
afford us the opportunity to examine DOE and NNSA policy formulation or 
inspections in great detail. We did have difficulty understanding how 
these processes worked in practice. We noticed security policy being 
written both inside and outside NNSA, suggesting a need to validate the 
appropriateness of multiple security governance tracks, especially 
where the result potentially drove different security applications in 
the field at different locations. 
    The record shows the DOE had inspected Y-12 just prior to the July 
2012 incident and despite extensive documented evidence of an imminent 
train wreck, Y-12 got good grades. Clearly DOE was not looking at the 
right things, or lacked sufficient security competency to recognize the 
existing failure conditions. Beyond IG-type inspections, system 
readiness/acceptance testing is also relevant to this question. As Mr. 
Augustine said when discussing operational testing of security systems, 
``. . . tests have too often addressed the question, `Does the hardware 
or practice meet the design criteria rather than is it operationally 
effective?' Standards are often procedural rather than performance-
oriented, and stress testing has been lacking.''
    c. Scrub governance to validate Department and Agency requirements 
and eliminate conflicting or inadequate guidance. Then, ensure 
productive alignment of authority and responsibility to produce policy 
and ultimately oversee effective current operations and prepare for 
tomorrow's effective operations. These two steps will help set the 
conditions for a value-added inspection process that can produce 
dependable results for local and headquarters awareness and action, as 
appropriate.
    Mr. Rogers. General Alston, in your letter to Secretary Chu, you 
note that metrics are an important complement to inspections as part of 
a comprehensive oversight program (Dr. Meserve made the same point). 
Reviews of the Y-12 incident have found that very few performance 
metrics were tracked by contractors and NNSA. What high-level metrics 
should we be tracking as Members of Congress to ensure that the 
security program is operating effectively?
    a. What are the most important metrics for senior officials to be 
tracking to assurance robust security performance?
    b. In addition, how can NNSA leadership ensure that ``quality 
metrics'' are developed and used by Federal staff and contractors to 
conduct oversight?
    c. How many metrics is too many--at what do the important ones get 
lost in the noise?
    General Alston. a. All are related to understanding risk and being 
able to competently accept risk up the chain. Metrics could include:
  Resource limitations driving non-standard activities. (personnel 
        shortages driving overtime; parts availability driving 
        prolonged outages of security equipment and extended 
        implementation of compensatory measures)
  Safety incidents. Number, quality, trends.
  Security incidents. Number, quality, trends.
  Progress on security system modifications or upgrades.
  Inspection results.
  Inspection deficiency follow-up/resolution.
    b. I think the metrics are chosen by identifying those governance 
requirements that spell `mission failure' if ever breached. 
Additionally, metrics should be collaboratively identified throughout 
the chain of command. Authentic desire for site input goes a long way 
towards achieving corporate buy in to these important measurements.
    c. Good question. I think some metrics are very relevant to the 
NNSA Administrator, and at the same time, more detailed subordinate 
metrics might be more appropriate at the local level. It's important to 
get the right information to the person accountable to fix the problem. 
In addition to just pushing data up the chain, it is perhaps more 
important for this content to drive interaction up and down the chain 
to reinforce constant leadership commitment to security, and for site 
participants to take that leadership commitment evidence to all the 
personnel on site.
    Mr. Rogers. General Alston, your letter indicates serious problems 
with the security culture at NNSA and DOE, and that many of these 
problems have existed for decades.
    a. Can we change the security culture without some sort of 
fundamental changes? Is it possible to shift the culture using only 
incremental changes?
    b. Culture changes are extremely difficult and often take a long 
time--what immediate-term actions should we be taking to begin this 
needed culture shift?
    c. You recommend federalizing the security forces. Do you think 
that would a large enough change to shift the culture?
    General Alston. a. In my experience, when culture change is needed, 
incremental adjustments will either fail to achieve the required change 
or will not drive change at the necessary speed.
    b. If the need for culture change is legitimized, dramatic action 
is often a catalyst for changing culture. A change in leadership, a 
clear articulation of the vision and the need for the change, sometimes 
a major re-organization are all relevant considerations. Key to setting 
conditions for change is to reinforce the value of security in NNSA and 
DOE and that is achieved in large part with accountability. 
Overcommunicate the standards and expected performance levels and 
consistently enforce them. Mr. Augustine identifies 7 ingredients to 
successful culture change on page 4 of his 6 December 2012 letter to 
Dr. Chu.
    c. No, federalizing the NNSA protective forces alone will not 
achieve the necessary culture change. Without the proper alignment of 
authority and responsibility up and down the chain between the sites 
and the HQ and without an effective means to ensure all members of NNSA 
and DOE understand their individual roles in security, all the 
necessary pieces will not be in place and the conditions will not have 
been set. However, federalizing the protective forces not only makes 
operational sense, but it would be a clear expression of intent and 
institutional commitment that, in my view, would be worth the cost in 
the long run.
    Mr. Rogers. General Alston, you and Mr. Augustine and Dr. Meserve 
seem to have read the many reports and independent reviews of DOE 
security that have been conducted previously. Your letter to Secretary 
Chu calls it ``the considerable body of work that has been done on this 
subject over the past decade.'' In particular, you mention the review 
done by Admiral Mies in April 2005. In my opening statement, I 
mentioned a few others--but there are many, many more.
    How do your findings and recommendations compare with those 
contained in all of these previous reports? Do you feel the findings 
and recommendations in the previous reports have been acted upon and 
addressed?
    General Alston. It is my view that many of the past reports contain 
observations and recommendations that also seemed relevant during the 
time of my study. In my opinion, the broadest security examination was 
led by ADM (ret) Mies and for that reason I encouraged the Secretary of 
Energy to critically re-evaluate DOE/NNSA documented resolution of that 
report's set of recommendations. Though I did not audit all the 
relevant reports in response to this QFR, I did review the Mies report 
again. I have included below some of the Mies recommendations that 
echoed with what I was observing at the time of my study. I suspect 
DOE/NNSA has taken relevant action in response, but given what I 
observed, continued vigilance is required.
    Some still-resonating Mies recommendations:
    <bullet>  ``Continue to promote greater collaboration and team 
building within NNSA with the goal of an enterprise approach to 
security. Support the Chiles panel recommendations on improved career 
development, assignment rotation training, professional qualification 
and certification, etc.
    <bullet>  Make an unequivocal commitment to upgrade the quality, 
relevance, and ownership of security training programs and professional 
certification.
    <bullet>  Emphasize a balance of compliance and performance 
objectives designed to incentivize and embed security improvement 
throughout NNSA, as part of an enterprise approach to security.
    <bullet>  Create a stronger climate of trust in the security 
program. Differentiate honest human security errors from malicious, 
grossly negligent ones.
    <bullet>  Adopt a more proactive approach to security through 
stronger accountability.
    <bullet>  Conduct an independent staffing assessment of NNSA 
relative to DOE. Rebalance staffing and expertise commensurate with the 
significance of the national security assets NNSA manages.
    <bullet>  Give greater autonomy and authority to the NNSA 
Administrator to oversee the elements of the security process, from 
policy formulation to implementation and oversight, which directly 
affect security of the NNSA complex.
    <bullet>  Implement the recommendations of the Chiles report to 
improve the federal security workforce, including developing and 
executing a comprehensive human capital management program; improving 
the training, qualifications, and stature of the NNSA security 
workforce; reengaging in national markets to hire security 
professionals; instituting a long-term practice of security staff 
rotation; identifying options for accelerating the security clearance 
process; improving security information flow; revising the NNSA 
Safeguards and Security Strategic Plan; and providing specific budget 
support for and tracking the progress of these recommendations.
    <bullet>  Continue to elevate security program visibility and 
importance through initiatives such as the June 2004 organizational 
realignment, to ensure security is commensurate with other line 
management responsibilities.
    <bullet>  Have NNSA headquarters assume greater responsibility for 
day-to-day supervision and oversight of site activities to promote an 
enterprise-wide approach to security, more consistent interpretation of 
security policy, and more standardized and coherent implementation. The 
new Associate Administrator for Defense Nuclear Security should be 
assigned responsibility for day-to-day security oversight. 
Responsibility for implementation needs to reside at all levels.
    <bullet>  Establish formal mechanisms to enable DOE/NNSA to 
regularly collaborate with DoD (and other appropriate federal agencies) 
on security policy issues, lessons learned, best practices, 
technological improvements, tactics, and procedures as recommended by a 
previous study.
    <bullet>  Promote greater reliance on continuing security self-
assessment programs to better inculcate security as every individual's 
responsibility and integral to mission.
    <bullet>  Consider changing the annual survey and self-assessment 
program to a year-round program of in-depth assessments in specific 
areas.
    <bullet>  Formulate an NNSA-wide strategic security plan, similar 
in level of detail and content to DOE's, to create a unifying security 
roadmap for the NNSA enterprise. Use this plan as a cornerstone for the 
creation of other interdependent enterprise wide plans, such as special 
nuclear material consolidation, infrastructure recapitalization, 
technology investment, information systems modernization, and the 
foundation for individual security discipline plans (physical, cyber, 
personnel, and material control and accountability).
    <bullet>  Establish effective, formal forums to: promote greater 
DOE/NNSA-to-DOD, DOE-to-NNSA, headquarters-to-site, and site-to-site 
collaboration between security policymakers and policy implementers, 
promote more consistent interpretation and application of security 
policy, foster adoption of best practices, help formulate a more 
coherent, NNSA-wide security plan, consider making peer review an 
inherent element of security policy formulation and implementation.
    <bullet>  Review and streamline local site compliance-based quick 
fixes to ensure security oversight is appropriately focused on 
performance objectives.
    <bullet>  Provide greater centralized clarification and 
interpretation of security policy to promote more consistent and 
standardized implementation. Consider repromulgation of a security 
standards and criteria manual.
    <bullet>  Consider conducting random testing of the PF throughout 
the year in both firearms and physical fitness. This testing will 
encourage officers to maintain weapons skills and physical fitness 
levels year-round and will give management a more realistic picture of 
the overall PF's capabilities.
    <bullet>  Direct site offices to regularly check the false or 
nuisance alarm rates from the CAS and compare them with the credit 
taken in the VAs to ensure the analysis accurately reflects field 
conditions. Establish a method to properly record and document the 
false or nuisance alarm rate and ensure proper training for CAS PF 
personnel.
    <bullet>  Install modern computer alarm equipment that has an 
automated alarm tracking system to replace antiquated systems.
    <bullet>  Establish a more rigorous process within DOE/NNSA 
headquarters to thoroughly review initial incident reports; monitor the 
inquiry progress; review final reports for adequacy of the inquiry, 
corrective actions, and analysis of underlying causes; and keep senior 
DOE/NNSA leadership appropriately advised.
    <bullet>  Establish a more formal and disciplined process at sites 
to track security incident corrective actions to completion. Consider 
requiring site management to include findings and corrective action 
plans in a site-level corrective action tracking process involving 
senior line management to ensure corrective actions are adequate and 
complete.
    <bullet>  Ensure reviews are conducted to execute continuous 
improvement.
    <bullet>  As also recommended by the Chiles report, establish a 
dedicated and more effective formalized process within NNSA 
headquarters to disseminate incident lessons learned to the NNSA 
community.
    <bullet>  Consider publishing a quarterly lessons-learned message 
for all DOE/NNSA sites, with procedures for ad hoc promulgation of 
urgent lessons learned.
    <bullet>  Develop more meaningful security metrics that accurately 
measure the nature, frequency, and significance of incidents; the 
underlying root causes; and the timeliness of reporting, investigation, 
and corrective action development. Periodically provide these metrics 
to senior headquarters and site leadership, as well as appropriate 
security officials, to promote greater awareness of security 
performance and concerns.
    <bullet>  Consider a reasonable standardization of site security 
system architecture, design, and implementation, including the security 
upgrades in progress. NNSA site oversight and headquarters should be 
involved in each critical decision stage of security upgrade projects. 
Project rationale and justification should be scrutinized and compared 
with complex-wide needs and overall direction. This would optimize the 
use of security up-grade funding and present a clear direction for 
security strategy.
    <bullet>  Develop, with urgency, a more robust, integrated DOE/
NNSA-wide process to provide accountability and follow-up on security 
findings and recommendations.''
    Mr. Rogers. If previous studies have repeatedly noted the same 
problems--for instance, confused lines of authority, responsibility, 
and accountability--why have they not been addressed? Why have prior 
attempts to implement change at NNSA failed? What should Congress do to 
ensure these issues are addressed once and for all?
    General Alston. Some in DOE and NNSA have pointed to the transitory 
nature and frequency of leadership change and a lack of continuity of 
priorities during these transitions as causal. It is my view that in 
the current DOE culture, ``safety,'' ``security,'' ``science (labs),'' 
and ``mission (production sites)'' share a common, finite tradespace 
and compete with each other for emphasis and resources. If there is 
insufficient individual security expertise at the senior levels of NNSA 
and DOE, and no common appreciation for the value of security across 
senior leadership--except in crisis--security concerns will find 
inconsistent support and ultimately weak follow through.
    Mr. Rogers. General Finan, your report indicates serious problems 
with the security culture at NNSA, and that many of these problems have 
existed for decades.
    a. Can we change the security culture without some sort of 
fundamental changes? Is it possible to shift the culture using only 
incremental changes?
    b. Culture changes are extremely difficult and often take a long 
time--what immediate-term actions should we be taking to begin this 
needed culture shift?
    General Finan. a. NNSA leadership must take bold and enduring 
actions. Fundamental change is required within the NNSA organizational 
structure and in its assessment model. This, in and of itself, will not 
necessarily drive a change in culture. In conjunction with implementing 
the new structure and model, a deliberate campaign should be initiated 
to emphasize the importance of the security mission in strategic plans, 
mission statements, policy documents, and other expressions of 
management intent. Security must be clearly integrated with other 
mission elements and appropriately recognized as essential to overall 
NNSA mission success.
    It is possible to shift culture with incremental changes. However, 
those incremental changes would have to be a part of a well-planned, 
larger campaign designed specifically to re-shape the organization and 
its culture. A shift in culture is not likely if change is implemented 
at the margins of the issues and it does not address core faults such 
as the confusing and ill-defined roles and responsibilities within the 
NNSA federal organizational structure.
    b. A deliberate campaign should be initiated to emphasize the 
importance of the security mission in strategic plans, mission 
statements, policy documents, and other expressions of management 
intent. Security must be clearly integrated with other mission elements 
and appropriately recognized as essential to overall NNSA mission 
success. Additionally, NNSA needs to build and execute a Security Road 
Map that consolidates recommendations from previous reports, 
articulates a clear vision of where the security program is going, and 
charts a path forward. Document the path in a roadmap that is signed by 
the NNSA Administrator and follow up with action plans that have clear 
ownership, and status updates.
    Mr. Rogers. General Finan, you have argued that security 
requirements need to be better specified (for example, your report 
recommends that NNSA ``develop and issue specific standards against 
which security operations are to perform and the criteria by which they 
will be evaluated.'').
    What standards, criteria, and metrics do you suggest? What metrics 
should senior leaders pay special attention to in order to ensure 
robust security effectiveness? How many metrics is too many--at what do 
the important ones get lost in the noise?
    General Finan. DOE had detailed standards and criteria for security 
operations. The last iteration of that document is a good baseline to 
start from. It was issued under the title ``Guide for Implementation of 
Safeguards and Security Directives (Short Title: Safeguards and 
Security Standards and Criteria)'' on 26 November 1993. An example of a 
standard and associated criterion is listed below:

Standard
    Alarm Systems Testing and Maintenance: The facility conducts 
operability tests of the basic alarm components at least once every 
seven days, and performs required and necessary maintenance on the 
systems.

Criteria
    1. Personnel testing, maintaining, or servicing alarms have access 
authorizations consistent with the highest classification levels being 
protected, unless such testing and maintenance is performed as bench 
services away from the protected location or is performed under the 
supervision of an appropriately cleared and knowledgeable custodian of 
the alarm-protected location.
    2. Alarms bench tested or maintained by uncleared personnel away 
from the protected location are inspected and tested prior to 
installation.
    3. At least once a week, the basic alarm component is tested by 
simulated intrusion of the alarmed area or of the protected space of an 
alarmed object. (Opening an alarmed portal in a manner that would cause 
an alarm is an adequate weekly test.) Alarms caused by the opening and 
closing of areas by operating personnel in the normal performance of 
their activities are acceptable tests when documented as tests.
    4. False and nuisance alarm rate records are maintained and results 
are analyzed to determine alarm system performance.
    5. Corrective maintenance is initiated within 72 hours of 
indication of failure. Compensatory measures are initiated immediately 
to provide equivalent detection capability when any part of the 
detection system is out of service and are continued until maintenance 
is complete.
    For Metrics, NA-70 has is working some detailed metrics in their 
new Mission Essential Task List that will be useful in managing the 
protective force and should roll up to higher level metrics that can be 
used by senior leaders. A basic metric framework could include the 
major categories of System Performance, Operational Performance, 
Modernization, Support Services, and Predictive Indicators. System 
performance could include metrics such as False and Nuisance alarm 
rates, camera status, sensor status, etc. Operational Performance could 
focus on protective force training status, evaluation results, exercise 
performance and depth, etc. Modernization could measure the status of 
the security systems by monitoring the age of the significant sub-
systems. Support Services could measure contract status, 
standardization of procedures and documentation across the NNSA 
complex, etc. The Predictive Indicators metric could focus on early 
alerting of leadership to potential issues. For example, funding status 
for training could indicate future proficiency; leadership security 
experience levels could indicate the quality of future performance and 
decisions, etc. These indicators would be made up of increasing levels 
of detail that are used by each level of management to manage security. 
Establishing the right level and number of metrics is difficult. A 
small number of high level metrics with the ability to drill down to an 
appropriate level to see causes and contributing factors is essential. 
The key is a structured process with defined business rules that are 
adhered to by all participants.
    Mr. Rogers. To what extent do you believe that oversight activities 
should also be standardized and/or centrally directed? Will more 
inspections necessarily equate to more effective oversight? How should 
oversight of security operations be conducted?
    General Finan. There is a role for standardized, centrally directed 
oversight as well as for individualized, tailored evaluation. At the 
tactical level, oversight activities should be tailored and flexible 
based on needs and specific performance. As the level of overseeing 
organization rises, the level of standardization and centralization 
should rise correspondingly. For example, at the tactical level, a 
security supervisor would want to see and evaluate the specific actions 
of the team members that work for him/her. Based on the supervisors 
knowledge of threats, skill levels, training, and site specifics, 
evaluation must be tailored for the specific situation. At an 
operational level, evaluators must see standardization of procedures 
and accomplishment of objectives. These evaluations would be more 
standardized and controlled by a central authority. At the strategic 
level oversight should focus on the larger context of fulfilling 
mission requirements. Again, this type of evaluation should be 
centrally directed as it is looking for performance across the 
enterprise.
    More inspections will not equate to better performance and will not 
necessarily equate to effective oversight. While inspections can drive 
performance, they do not ensure performance. A comprehensive system of 
oversight is needed.
    Our report proposed strengthening the role of Federal security 
assessment within NNSA without diminishing the legitimate need for 
contractors to maintain their own self-assessment capabilities or HSS 
to provide Independent Oversight. We called for a three-tiered 
assessment process.
    Contractor self-assessment is the first tier in the overall 
assessment process. The primary audience for the contractor self-
assessments should be the contractor security managers themselves, but 
the self-assessments should follow a consistent, program-wide format, 
and be made available for review at all higher levels of management. 
Contractors should be required to identify, report, and resolve 
security issues--sanctions should come when a higher level assessment 
uncovers problems that the contractor self-assessments fail to identify 
or properly address. Even when an issue is readily resolved and 
corrective actions are immediate, a finding should be issued and the 
corrective action recorded. Failure to do so inevitably hides potential 
negative trends. Contractor self-assessments should involve active 
performance testing rather than simply relying on work observation and 
document review--effective security performance can only be evaluated 
through testing. On site Federal security personnel should actively 
participate in this process as quality assurance for the federal 
government.
    The fundamental purpose of Federal security performance assessment 
is to ensure that requirements are properly implemented. Therefore, the 
primary Federal assessment organization should ultimately report to the 
Chief of Defense Nuclear Security, who is responsible for requirements. 
This provides independence not only from the contractors, but also from 
the tactical-level Federal field staff whose necessary day-to-day 
interaction with contractor managers and staff risks loss of 
objectivity. This enables the Chief of Defense Nuclear Security to 
better ensure effective implementation of NNSA security programs. 
Additionally, it provides feedback on performance to the operational 
and tactical levels.
    These Federal security assessments should include performance 
testing of all critical elements. The assessors should issue clear 
findings which are to be tracked and closed in a program-wide 
corrective action management system. Federal assessors should also look 
closely at the contractor self-assessment process; ``failures to 
identify'' by the contractor self-assessment element should 
automatically rise to the level of significant findings.
    The final tier of the assessment model should explicitly rely upon 
the services of an independent security oversight function, currently 
provided by HSS. NNSA should arrange for a regular process of 
comprehensive inspections. The oversight function should be encouraged 
to issue strong findings for matters of potential concern to the NNSA 
Administrator and the Secretary of Energy, and should routinely 
evaluate the performance of contractor self-assessments and the Federal 
assessment program.
    Mr. Rogers. How do we ensure robust security oversight that is not 
overly burdensome?
    General Finan. Much of the ``burden'' of oversight is caused by 
excessive paperwork associated with evaluating compliance. The current 
security assessment process in NNSA is paper-based and is heavily 
dependent on field office and contractor reporting. It does not include 
independent observation or validation of site security implementation 
from NNSA. As a result, NNSA is unable to validate the implementation 
of security policies or contractor performance of assigned missions. 
Large volumes of paperwork are generated each quarter in which it is 
nearly impossible to discern trends or significant deficiencies.
    In the area of security, oversight must be about performance. 
Therefore, oversight should see actual performance in the form of real 
world activity or exercises. Some paperwork should be reviewed, such as 
training records, but that paper work should already exist and not be 
generated solely for the purpose of outside oversight. Specific 
standards against which security operations are to perform and the 
criteria by which they will be evaluated must be codified. This will 
ensure security professionals know what is expected and how they will 
be evaluated. By eliminating paperwork generated solely for the purpose 
of oversight and adhering to a known set of standards and criteria, 
security oversight should not be burdensome.
    We should also resist the notion that strong performance-based 
standards and criteria and an equally strong insistence on stringent 
performance assessment and oversight inherently constitutes an 
excessive burden on contractors and the field. Part of the cultural 
challenge lies in overcoming the tendency on the part of contractors 
and their field level federal counterparts to assert that their local 
priorities and perspectives must take precedence over comprehensive and 
coherent, centrally-driven security program direction. A good system 
must take into account special local circumstances. However, NNSA's 
longstanding tradition has been the assertion that ``the field always 
knows best,'' and that Headquarters should simply stay out of their 
business. Upon close examination, many complaints about ``excessively 
burdensome HQ security oversight'' are revealed as exercises in ``turf 
protection''.
    Mr. Rogers. General Finan, your report is clearly indicating 
frustration when it says ``the most striking result of this review 
falls in the area of culture sustainment. It quickly became evident 
that the Task Force findings closely resemble those presented in 
numerous prior reports such as the 2005 Mies Report and the 2004 Chiles 
Report.'' Why haven't DOE and NNSA been able to address these long-
standing, well-documented problems?
    a. What do you recommend that we in Congress do to ensure they are 
actually addressed this time?
    General Finan. DOE and NNSA have not been able to attack core 
issues. As a result, they make marginal change around the periphery of 
the issue, check the box showing they have taken action, and move on to 
other things. Security human capital development is a good example. 
Security professionals in NNSA do not have a defined career path. They 
do not have a program for their development, and they largely see their 
careers with the federal government as dead ends. This issue has been 
repeatedly identified. As a result NNSA has taken action. They 
implemented a rudimentary requirement for security professionals to get 
some minimal training and the started a program where they brought in 
young leaders as a part of the leadership development program. With 
this in place, it was assumed that they had taken care of the Human 
Capital issues identified in the 2004/2005 time frame. Unfortunately, 
this action did not create a career path; it did not develop security 
professionals; it did bring in people with little or no security 
expertise or necessarily even an interest in security; and it did not 
change the belief that there was not anywhere to progress to in 
security. It nibbled at the margins of a core issue . . . the fact that 
there was no identifiable, repeatable, or executable career path for 
federal security professionals.
    a. Ensure that NNSA builds and executes a Security Road Map that 
consolidates recommendations, articulates a clear vision of where the 
security program is going, and charts a path forward. Document the path 
in a roadmap that is signed by the NNSA Administrator and follow up 
with action plans that have clear ownership, including regular status 
updates. Solutions must be enduring and will require leadership 
dedication.
    Mr. Rogers. General Finan, you recognized human capital limitations 
as a contributing factor to the event, including weak staff 
capabilities to assess contractor performance. What can Congress do, if 
anything, to enhance human capital at NNSA as it pertains to security?
    General Finan. NNSA must develop a comprehensive plan for 
recruiting, developing, and retaining qualified security experts. NNSA 
needs the right federal security professionals in the right places. 
Individual leaders, and collectively the entire staff, must possess an 
appropriate skill and experience base to provide effective security 
program execution. Congress can specifically help by ensuring that NNSA 
has the ability to hire the appropriate federal security staff, both in 
terms of numbers and pay scale. Currently, NNSA relies heavily on 
support service contractors. This is partly due to limitations 
(perceived or real) on funding and hiring federal personnel.
    Mr. Rogers. General Finan, your task force was directed to study 
organizational issues within NNSA. Your tasking did not include 
assessing organizational issues within the broader DOE system. In the 
course of your investigation, did you become aware of any 
organizational problems related to security in the broader DOE 
organization, or are these problems located solely within NNSA?
    a. Do you believe the security policy-making and oversight roles 
and responsibilities between DOE's Office of Health, Safety, and 
Security and NNSA are clearly defined and understood?
    General Finan. We did find evidence of similar confusion related to 
ambiguous lines of authority and lack of standardization in executing 
the security mission. As in NNSA, we found wide variations in how the 
federal staffs executed their oversight roles at the various sites.
    a. I do not. The Task Force identified that there is no clearly 
articulated or consistently implemented NNSA security policy process. A 
major concern is the supplanting of DOE Security Orders with generic 
and less restrictive NNSA policies (NAPs). Additionally, the Task Force 
noted a desire on the part of some NA-70 senior managers to maximize 
separation from DOE HSS policies and activities. Within NA-70, policy 
and guidance are issued through a variety of formal and informal 
mechanisms with erratic distribution. The Task Force identified that 
some Federal field organizations are inconsistent in their acceptance 
and application of NA-70 issued policies. Finally, NA-70 policy and 
guidance tend to be vague resulting in widely differing interpretations 
by field personnel. This has resulted in additional confusion in the 
field as to which policies actually apply to them.
    Mr. Rogers. General Finan, your report seems to indicate that DOE 
and NNSA were overly focused on paperwork, and missed the warning signs 
that indicated a problem at Y-12. Why such focus on paperwork? How were 
they missing the warning signs?
    a. How would you change the assessment, inspection, and oversight 
process to ensure the warning signs are noticed, and security 
performance is assured?
    General Finan. Misinterpretation, and/or misapplication of the DOE 
Safety and Security Reform Plan, dated March 16, 2010, resulted in a 
weakened Federal security assessment program. In particular, this 
document stated: ``Security Performance: Contractors are provided the 
flexibility to tailor and implement security programs in light of their 
situation and to develop corresponding risk- and performance-based 
protection strategies without excessive Federal oversight or overly-
prescriptive Departmental requirements.'' This guidance was further 
expanded upon and eventually articulated in NAP-21, Transformation 
Governance and Oversight Initiative. The belief arose that ``eyes on, 
hands off'' precluded Federal security staff from conducting 
performance-based assessments of contractors. As a result, most Federal 
assessment was based on paperwork generated by the contractor. The 
paperwork was voluminous and non-standard. There were no consistent 
business rules on how to report areas of concern. The result was a mass 
of paper that made it nearly impossible to discern issues.
    This paper-based system of assessment, without sufficient 
performance verification, is inadequate for effective evaluation of 
security operations. Much of the ``burden'' of oversight is caused by 
excessive paperwork associated with evaluating compliance. Large 
volumes of paperwork are generated each quarter in which it is nearly 
impossible to discern trends or significant deficiencies. This, 
combined with a lack of NNSA independent observation or validation of 
site security implementation resulted in an inability to validate the 
implementation of security policies or contractor performance of 
assigned missions.
    a. The Task Force proposed an assessment model that strengthens the 
role of Federal security assessment within NNSA without diminishing the 
legitimate need for contractors to maintain their own self-assessment 
capabilities.
    The contractor self-assessment process is the first tier in the 
overall assessment process. The primary audience for the contractor 
self-assessments should be the contractor security managers themselves, 
but the self-assessments should follow a consistent, program-wide 
format, and be made available for review at all higher levels of 
management. Contractors should be required to identify, report, and 
resolve security issues--sanctions should come when a higher level 
assessment uncovers problems that the contractor self-assessments fail 
to identify or properly address. Even when an issue is readily resolved 
and corrective actions are immediate, a finding should be issued and 
the corrective action recorded. Failure to do so inevitably hides 
potential negative trends. Contractor self-assessments should involve 
active performance testing rather than simply relying on work 
observation and document review--effective security performance can 
only be evaluated through testing.
    The fundamental purpose of Federal security performance assessment 
is to ensure that requirements are properly implemented. Therefore, the 
primary Federal assessment organization should ultimately report to the 
Chief of Defense Nuclear Security, who is responsible for requirements. 
This provides independence not only from the contractors, but also from 
the tactical-level Federal field staff whose necessary day-to-day 
interaction with contractor managers and staff risks loss of 
objectivity. This enables the Chief of Defense Nuclear Security to 
better ensure effective implementation of NNSA security programs. 
Additionally, it provides feedback on performance to the operational 
and tactical levels.
    These Federal security assessments should include performance 
testing of all critical elements. The assessors should issue clear 
findings which are to be tracked and closed in a program-wide 
corrective action management system. Federal assessors should also look 
closely at the contractor self-assessment process; ``failures to 
identify'' by the contractor self-assessment element should 
automatically rise to the level of significant findings.
    The final tier of the assessment model should explicitly rely upon 
the services of an independent security oversight function, currently 
provided by HSS. NNSA should arrange for a regular process of 
comprehensive inspections. The oversight function should be encouraged 
to issue strong findings for matters of potential concern to the NNSA 
Administrator and the Secretary of Energy, and should routinely 
evaluate the performance of contractor self-assessments and the Federal 
assessment program.
    This performance assessment model assumes a common requirements 
base that is employed at all levels and across the NNSA security 
program. While some allowance may be made for site-specific issues, the 
fundamental elements of this requirements base should be an 
appropriately integrated system of DOE policies, NNSA implementation 
directives, and field operational guidance. The requirements base 
should be reflected in approved documents such as site Safeguards and 
Security Plans. Specific performance requirements should be articulated 
in detailed performance standards and criteria supported by a commonly 
understood and utilized performance testing process.
    Mr. Rogers. Mr. Friedman, your report recommends that NNSA 
``perform periodic in-depth reviews of contractor's security 
performance using a risk-based approach.'' Does NNSA not do this now?
    a. How does NNSA and DOE use risk analysis in its assessments of 
security?
    b. Do we have a rigorous means of assessing, managing, and 
balancing security risks, costs, and mission needs?
    Mr. Friedman. At the time of our review, there were two levels of 
Federal contractor security performance assessments at the Y-12 
National Security Complex. These were performed by the Department's 
Office of Health, Safety and Security (HSS) and the NNSA Production 
Office (NPO).
    HSS performed limited scope security assessments on a periodic 
basis. During the review, we did not specifically review HSS's 
methodology for determining what sites/areas to assess or the frequency 
of the assessments. However, HSS has publically acknowledged that its 
review regime has been limited in recent years. The Department has 
stated that, as a result of the Y-12 matter, a more robust security 
performance assessment strategy will be implemented.
    NPO stated that it performed periodic reviews of the contractor's 
security performance using a risk-based approach. However, as part of 
our work at Y-12, we interviewed the NPO personnel responsible for the 
reviews and examined NPO's periodic assessment reports. In our opinion, 
the reviews could not be considered ``in-depth'' since they consisted 
mainly of reviewing contractor-prepared documentation and/or 
``shadowing'' the contractor's self-assessments rather than conducting 
independent security performance testing.
    a. The results of our review at Y-12, which catalogued what we 
described as multiple-system failures, reflects our view of the quality 
of risk assessment methodologies employed by NNSA/DOE, at least as they 
applied to that facility at that time. Beyond our published analysis, 
we did not specifically evaluate NNSA/DOE's use of risk analysis to 
plan their security assessments. Respectfully, responsible Department 
officials may be able to provide a complete answer to this question.
    b. Our review focused on the circumstances directly pertaining to 
the incident at Y-12, thus we did not evaluate the overall NNSA/DOE 
security posture. To the extent the problems identified at Y-12 as part 
of our review and by other subsequent reviews reflect the status of 
security throughout the complex, there is reason for concern.
    Mr. Rogers. Secretary Poneman, we've heard differing opinions on 
how DOE and NNSA's protective forces should be structured. Do you 
believe federalization of the protective forces is an appropriate path 
forward? What are the benefits, risks, and costs of the various models 
for the protective forces?
    Mr. Poneman. Federalization of the protective force was considered 
extensively in security reviews by Mr. Meserve, Mr. Alston and Mr. 
Augustine following the Y-12 security incident as well as many others 
over the years. DOE believes this topic is worthy of continued dialogue 
within the Department and with Congress, but is not prepared to offer a 
formal opinion at this time.
    Some of the issues for further consideration include how a Federal 
force would integrate with on-site Management and Operating (M&O) 
contractor leadership, the potential for complex-wide labor disputes or 
strikes, and the budgetary impact on the Government.
    Mr. Rogers. Secretary Poneman, in General Alston's letter to 
Secretary Chu, he says ``there is a perception that corporate security 
policy is being written from inspection results.'' Mr. Augustine noted 
in his letter that inspections and assessments inappropriately focus on 
compliance with standards, and not on security effectiveness or 
performance, concluding that ``what is needed is not more inspections 
but better inspections.'' Do you agree? If so, how will DOE address 
this concern?
    a. What is being done to make inspections more effective at 
assuring robust security performance?
    Mr. Poneman. The Department appreciates receiving these 
observations from General Alston and Mr. Augustine. Inspections of 
nuclear facilities performed by HSS not only focus on compliance with 
established DOE policies, but also on security effectiveness and 
emphasize testing of performance. I agree that the quality of 
inspections is very important in addition to frequency. Since the Y-12 
security incident we have directed HSS to enhance its inspections to 
include more limited-notice and no-notice testing of the protective 
forces and security systems in order to ensure their readiness to 
respond to security incidents. As you know, we have also directed HSS 
to conduct extent-of-condition reviews at all Category I special 
nuclear facilities and to complete comprehensive inspections at each of 
these facilities by October 2013.
    Mr. Rogers. Secretary Poneman, several witnesses from the first 
panel indicated in their reports that the governance reforms initiated 
by Secretary Chu and Administrator D'Agostino were misinterpreted or 
misapplied by Federal staff, which was a contributing factor to the Y-
12 incident. Do you agree? [Question #16, for cross-reference.]
    Mr. Poneman. NNSA's governance reforms were structured to improve 
the Line Oversight of its contractor operations. Effective Line 
Oversight uses several different sources of information to ensure 
accurate and objective understanding of conditions and performance. 
Those sources include federal line management assessments, federal 
independent assessment and data from the Contractor's ``Contractor 
Assurance System (CAS)''. A CAS is a primary tool used by Contractor 
Management to measure, improve, and demonstrate performance and ensure 
that mission objectives and contract requirements are achieved. CAS is 
the same as basic concepts of successful industry quality management 
systems such as International Standards Organization (ISO) 9000/9001.
    A robust and effectively functioning CAS provides transparency and 
builds trust between NNSA and its contractors and helps to ensure 
alignment across the NNSA Enterprise to accomplish and address mission 
needs. For example, comparing data developed through the CAS to data 
developed by federal assessments allows NNSA to ensure that the M&O 
contractor has effective quality management programs in place. With 
effective and transparent contractor assurance systems, NNSA can focus 
the deployment of our federal oversight workforce on high risk areas, 
e.g. nuclear safety, security, and cyber security.
    NNSA has recently completed a review of the current policy on 
reviewing CAS and Line Oversight processes in light of the lessons 
learned from the early reviews and the Y-12 performance failure. The 
review has identified needed changes to the processes so future reviews 
will ensure performance requirements are being met and that the 
objectives and expectations for NNSA governance are effectively 
communicated and adhered to across the complex.
    These changes will be consistent with the revised DOE Order 226.1B, 
Implementation of Department of Energy Oversight Policy, which requires 
that the Heads of the Field Elements approve the initial contractor 
assurance system description; review and assess the effectiveness of 
the Contractor Assurance Systems (CAS); and establish performance 
expectations and communicate same to contractors through formal 
contract mechanisms. This is a continuation of the requirements 
contained in the predecessor DOE order 226.1A, dated July 31, 2007. 
That order also contains contractor requirements for a CAS. 
Additionally, DOE Order 227.1, Independent Oversight Program, issued 
August 30, 2011, requires that the contractor's corrective action to 
address a security weaknesses identified during an Independent 
Oversight inspection be approved by the DOE. This is a continuation of 
the requirement that was contained in the predecessor order, DOE Order 
470.2B, Independent Oversight and Performance Assurance Program, dated 
October 31, 2002. A key aspect of our strengthened process is the 
establishment of a central line organization, the Office of 
Infrastructure and Operations, (NA-00) and a clear focus on oversight 
at three distinct, but mutually supportive, levels within NNSA. As 
before, the M&O contractors are responsible and accountable for their 
performance at the floor level where their employees perform work--this 
is what we call the ``tactical'' level of oversight. The Office of 
Infrastructure and Operation provides the federal line-management or 
``operational'' oversight. In this regard, NA-00 leverages the combined 
capabilities of its offices through the complex to ensure that 
oversight is performed by both the federal staff closest to, and most 
knowledgeable of, a specific site's operations but also federal 
personnel responsible for similar activities at other locations who can 
provide additional objectivity because they have relevant experience 
but a different perspective. NNSA also provides oversight by subject 
matter experts who are independent of the NN-00 line organization. 
Offices such as security (NA-70) and safety (NA-SH) provide strategic 
oversight and performance data to the most senior NNSA leaders from a 
perspective outside the pressures and influences that can affect the 
line organization.
    Based on these refinements and improved clarity, as well as the 
added reliability of the structured levels of oversight, NNSA will work 
to ensure that our oversight and performance expectations are clear, 
well executed, and not misinterpreted.
    Mr. Rogers. Secretary Poneman, DOE's 2010 Safety and Security 
Reform Plan advocated for a performance-focus and the removal of 
``excessive'' Federal oversight. Do you still stand behind the plan's 
core tenets?
    a. As Deputy Secretary, how will you ensure that NNSA and DOE 
conduct rigorous and effective--but not burdensome--oversight of 
security at NNSA's facilities?
    Mr. Poneman. Over the past two years the Department undertook an 
effort to assess the effectiveness of all safety and security 
directives with the goal of reducing redundancy, duplication and 
inconsistencies. The result is a set of directives that is more 
streamlined, allows DOE program offices and contractors greater 
flexibility in implementing Departmental requirements, without 
sacrificing the level of protection of worker health, safety and 
security. The directives reform effort was not a contributing factor to 
the security failure at Y-12. None of the studies conducted so far 
(either by General Alston, Mr. Meserve, Mr. Augustine, General Finan, 
or the Inspector General) have pointed to the Department's revised 
directives. For instance, the revised DOE Order 226.1B, Implementation 
of Department of Energy Oversight Policy, requires that the Heads of 
the Field Elements approve the initial contractor assurance system 
description; review and assess the effectiveness of the Contractor 
Assurance Systems (CAS); and establish performance expectations and 
communicate same to contractors through formal contract mechanisms. The 
order also contains contractor requirements for a CAS. This is a 
continuation of the requirements contained in the predecessor DOE order 
226.1A, dated July 31, 2007.
    a. We will continue to ensure that NNSA and DOE perform rigorous 
and effective oversight of security and strive to improve that 
oversight, in ways that minimize the impact to mission execution.
    Mr. Rogers. Secretary Poneman, nearly every external review in the 
past decade has indicated serious problems with the security culture at 
NNSA and DOE. Culture changes are extremely difficult and often take a 
long time. What immediate-term actions should we be taking to begin 
this needed culture shift? What is your long-term plan to instill a new 
security culture? [Question #18, for cross-reference.]
    Mr. Poneman. a. We recognize the need for a positive culture 
change. Immediate-term actions within the NNSA included the hiring of 
four senior Federal personnel to transform our approach to security. A 
highly-experienced individual with over 30 years of Nuclear Security 
experience in the Department of Defense was appointed to serve as the 
new Chief of Defense Nuclear Security; two new Senior Advisors 
experienced in security matters will serve under the Chief to develop 
overall policy and ensure the adequacy of its implementation through 
assessments. In addition, a highly experienced individual was brought 
into NA-00, the Office of Infrastructure and Operations, to provide 
high level operational experience to facilitate more consistent and 
high quality oversight of the operational security program. These 
individuals are charged with changing the culture of the security 
community.
    Recognizing a need to continue improvement in the NNSA Safety 
Culture, the NNSA Administrator established the NNSA's Safety Culture 
Working Group (SCWG) on December 3, 2012, to identify and direct 
specific actions to improve the safety culture in NNSA. The SCWG 
quickly determined that it was appropriate, and more descriptive, to 
address the overall NNSA performance culture, which includes security 
performance. Everyone within the NNSA directly impacts our performance 
culture, regardless of role or function; therefore, everyone has a role 
in improving our overall performance culture.
    The SCWG is conducting a comprehensive assessment of the NNSA 
culture, will analyze the data collected through extensive reviews of 
NNSA personnel and recommend corrective actions. The SCWG has authority 
to direct actions necessary to monitor and improve culture throughout 
NNSA.
    As indicated in Geral Finan's review, after HSS security 
inspections revealed security flaws dating back to the early 200s, 
these flaws are now getting HSS follow-up attention. We recognize that 
true lasting cultural change is the hardest type of change to 
implement. NNSA senior leadership is united and engaged not only in 
acknowledging the need for change but in actively supporting that 
change. The lessons learned the hard way from our experience at Y-12 
have served as an undeniable wake up call for us to set clear 
expectations for performance, adherence to standards and attention to 
detail across the NNSA enterprise.
    b. First and foremost, we acknowledge the need to improve and to 
face facts about performance and culture head on. Our near-term actions 
set the stage for success in the long term. By bringing in several high 
quality experts with significant experience in nuclear weapons security 
we have begun to set the example of supreme professionalism in our 
leadership. We have implemented all recommendations of the Finan Report 
which, over time, will drive clarity not only into the chain of command 
but into the overall process by which we establish expectations across 
the enterprise.
    The new assessment model implemented by NA-70, our Chief of Defense 
Nuclear Security organization, will drive consistency of implementation 
in requirements and ensure adherence to high standards across the NNSA 
enterprise through frequent and detailed formal assessments at our 
sites by independent internal NNSA security professionals.
    These actions, supported by strong central leadership and 
unflinching focus will serve to increase the professionalism of the 
NNSA Headquarters security professionals, make more information 
available to the Administrator and hit the culture of complacency that 
led to our Y-12 failure directly.
    Mr. Rogers. Secretary Poneman, the first witness panel pointed out 
that most of their findings and recommendations are not new--that they 
are strikingly similar to those made by many external reviews over the 
past decades. We have stacks and stacks of reports going back 15 or 20 
years--since before NNSA was created--describing the same exact 
problems. [Question #19, for cross-reference.]
    a. Please list the various external reports and reviews of security 
and general management/oversight problems at DOE and NNSA that you have 
used (and will use) to understand the problems and history behind them.
    b. Why are these long-standing, well-documented problems not 
getting fixed?
    c. What assurances can you provide that they are now getting fixed? 
How will we know they are effective?
    d. Will the Obama Administration come forward with a package of 
reforms that will finally address the root causes of these problems in 
both security and general management at DOE?
    Mr. Poneman. In addition to the external security reviews by Mr. 
Meserve, Mr. Alston and Mr. Augustine and General Finan review of NNSA 
security following the Y-12 incident, a number of external reports and 
reviews of DOE/NNSA security and general management/oversight since 
NNSA's creation. They included:
    1) Federal Advisory Committee for the Nuclear Command and Control 
System Comprehensive Review (Admiral Mies Report), December 3, 2009
    2) Strengthening NNSA Security Expertise, an Independent Analysis 
(Chiles Report), March 2004
    3) Science and Security in the Twenty First Centure: A Report for 
the Secretary of Energy on the Department of Energy Laboratories (Hamre 
Report), February 2002
    4) Science and Security in the Service of the Nation: A Review of 
the Security (Baker/Hamilton Report), September 2000
    The Department takes the recommendations of internal and external 
security experts seriously, and implements their findings and 
recommendations as appropriate to address systemic problems. A top 
priority for the Department is improving the management and oversight 
of the Department's nuclear security mission.
    As evidenced by the Y-12 security breach, there are existing 
challenges in the nuclear security complex that needed to be addressed, 
some that demonstrated the need for a deep cultural change. Many of the 
external reports commented about the organization and management 
weaknesses, such as a lack of clear accountability, roles and 
responsibility, and authority. NNSA has taken on the challenge stemming 
from the proper line management security by implementing a key 
recommendation in General Finan's review, making the security of the 
entire nuclear complex more secure and streamlined.
    Prior to the Y-12 incursion, the Headquarters NNSA security 
organization, the Office of Defense Nuclear Security (NA-70), served as 
a ``Functional Manager'' for the security mission, while the line 
authority flowed from the Secretary to other NNSA Administrators and 
other organizations. General Finan recommended for strategic-level 
policy guidance, requirements determination, and performance assessment 
to be under the jurisdiction of the Chief, Defense Nuclear Security 
(NA-70).
    A separate office, NNSA' s Office of the Associate Administrator 
for Infrastructure and Operations (NA-00) would then provide the 
operational accountability for NNSA's security organization. 
Operational implementation and standardization of operations across the 
security program occurs at the NA-00 level.
    The existence of a single point through which the field reports and 
is held accountable is the way the NNSA will assure the consistent and 
effective implementation of security policy. This is a change from the 
approach the NNSA has taken-where each field office had greater 
latitude in implementing policies and requirements for its site.
    Mr. Rogers. Secretary Poneman, in his letter to Secretary Chu, Dr. 
Meserve notes that he and his fellow reviewers ``had some difficulty in 
obtaining a clear organization chart that defines the structure for 
security oversight within DOE.'' He noted that issues within this 
problem within NNSA were going to be addressed by General Finan's 
effort, but that ``a broader examination of DOE's internal management 
of security should be undertaken in order to streamline and simplify 
the structure.'' Are you going to undertake this effort to streamline 
and simplify DOE's management structure for security? What steps will 
you take and when? What can Congress do to support these efforts?
    a. Are the recommendations made by General Finan on simplifying 
structure within NNSA being implemented?
    b. How is creation of a new office that will have security 
responsibilities (NA-00), while maintaining or increasing the size of 
other offices with security responsibilities, ``simplifying'' the 
structure?
    c. Will you clarify and document the roles and authorities of NA-
70, NA-00, DOE's Office of Health, Safety, and Security, site offices, 
senior officials, and other parties? When will this happen? How will it 
be documented and communicated to all stakeholders?
    d. What steps are you taking to minimize conflicting policies and 
directions provided by NNSA headquarters, DOE's Office of Health, 
Safety, and Security, and other Federal officials to field staff and 
contractors?
    Mr. Poneman. a. NNSA is implementing recommendations made by 
General Finan following her thorough review of the federal NNSA 
security organizational structure and security oversight model.
    b. General Finan offered recommendations to established and ensure 
a clear and strong path of line management authority, responsibility, 
and accountability for security operations within the NNSA. NNSA's 
Office of the Associate Administrator for Infrastructure and Operations 
(NA-00) would provide the operational accountability for NNSA's 
security organization, while the Chief, Defense Nuclear Security (NA-
70) provides strategic-level policy guidance, requirements 
determination, and performance assessment.
    c. The Department's Office of Health, Safety and Security (HSS), in 
consultation with line management, is responsible for the development 
of DOE nuclear safety and security policy, Federal Rules, Orders, and 
the associated standards and guidance, as well as for reviewing safety 
and security issues complex-wide. HSS also conducts independent 
oversight and regulatory enforcement that is independent from line 
management. HSS oversight has expanded the scope and variety of 
performance testing methods utilized to assess the readiness of DOE and 
NNSA site protection systems against a defined spectrum of threats and 
adversary capabilities Performance testing methodologies include no-
notice and limited notice inspections to obtain a more realistic 
assessment of site response capabilities and readiness performance.
    d. To directly address problems with the assessment model, NNSA has 
set about implementing a three-tiered approach to assessing security 
throughout the NNSA. This approach includes: 1) an initial assessment 
performed by the contractor at the site, 2) an assessment of the 
contractor's performance carried out by the Chief of Defense Nuclear 
Security at DOE Headquarters (NA-70), and 3) independent oversight by 
the Office of Health, Safety and Security. And, of course, apart from 
this three-tiered assessment and inspection regimen, we expect Federal 
site personnel to perform quality assurance activities on a routine 
basis as an integral part of their line management responsibilities.
    Mr. Rogers. Secretary Poneman, in the 1990s we had a string of 
major security problems at DOE Defense Programs, which then ran the 
nuclear weapons complex. In 1999, the President's Foreign Intelligence 
Advisory Board called DOE ``security at its worst'' and a 
``dysfunctional bureaucracy that has proven it is incapable of 
reforming itself.'' Congress created NNSA in an effort to address these 
exact concerns. But on February 22 the DOE Chief Security Officer, 
Glenn Podonsky, was quoted telling a reporter that the nuclear 
enterprise ``wasn't working badly'' in the 1990s before NNSA was 
formed, and that we should just abolish NNSA and go back to having 
everything in DOE.
    a. Do you agree with Mr. Podonsky that the nuclear enterprise 
``wasn't working badly'' in the 1990s?
    b. Do you agree with Mr. Podonsky that NNSA should be dissolved and 
folded back into DOE? Are Mr. Podonsky's views the position of the 
Department of Energy?
    Mr. Poneman. I discussed Mr. Podonsky's remarks with him. His 
comments were not accurately reflected in the news article you are 
referencing, and he made clear at the time that the remarks were not 
made on behalf of DOE. He merely remarked on the restructuring options 
that an external review panel may consider and the feasibility of those 
options. As you know, the Administration has made no proposal to 
dissolve the NNSA or to return to any previous organizational model.
    Mr. Rogers. Secretary Poneman, are you aware that DOE's Office of 
Health, Safety, and Security conducted an independent oversight 
inspection of Y-12's physical security systems in May 2012--just two 
months before the security breach?
    a. When did you become aware of this inspection and its results?
    b. Do you believe this inspection of Y-12's physical security 
systems should have found the many problems--such as inoperative 
cameras, unacceptably high false alarm rates, inappropriate delegation 
of cognizant security authority, etc.--that were subsequently found to 
have contributed to the breach?
    c. How effective are these independent inspections if they can't 
catch and correct these glaring problems?
    Mr. Poneman. The report from May 2012 was not a full security 
inspection, nor was this report approved through the formal HSS review 
process. Official HSS reports go through an exhaustive peer-review 
process led by a Quality Review Board and are approved by all levels of 
HSS senior management including approval by the Chief Health, Safety 
and Security Officer. The May 2012 report was never considered by a 
Quality Review Board panel and was not reviewed or approved by HSS 
senior management. The individual who wrote it and submitted it to the 
site, (without a signature nor on DOE letterhead) has received a formal 
reprimand for his misrepresentation and was removed from any leadership 
role for failing to follow important protocols and misrepresenting the 
nature of the product.
    A security inspection by HSS would have revealed many of the 
problems at Y-12--as did the most recent full inspection in 2008-2009. 
This unsanctioned report was the product of an assistance visit 
requested by the site to focus on some very narrow issues. This 
unapproved memo in no way could be interpreted as a validation that 
everything was OK with security at Y-12. Neither HSS senior management 
nor I were aware of the document until it was identified during a 
search for Y-12 related documents requested by Congress.
    Mr. Rogers. Secretary Poneman, how long has DOE's Chief Security 
Officer, Mr. Glenn Podonsky, been employed by the Department of Energy? 
How long has he held senior positions in the Department that have to do 
with security oversight and/or security policy?
    a. Given his previous positions and tenure, do you believe Mr. 
Podonsky should have been aware of external reviews of DOE security 
from the 2000s (Such as the Commission on Science and Security in 2002 
and the Mies Task Force in 2005)?
    b. As the Chief Security Officer for the Department, do you believe 
it is Mr. Podonsky's responsibility to ensure that problems identified 
by previous external reviews of security are corrected?
    c. Do you believe the problems identified by previous reviews, such 
as ``lack of clear accountability, excessive bureaucracy, 
organizational stovepipes, lack of collaboration, and unwieldy, 
cumbersome processes, '' as identified by Admiral Rich Mies in 2005 and 
many others before him, have been addressed?
    Mr. Poneman. Mr. Podonsky has served in DOE for approximately 29 
years, in a number of senior positions involving security evaluations, 
independent oversight, and performance assurance. He has been relied 
upon by DOE leaders and Congressional oversight committees through 
those years due to his experience and expertise in DOE nuclear security 
matters. It is important to understand the security role of the Office 
of Health, Safety and Security (HSS) which is headed by Mr. Podonsky. 
HSS is a staff office reporting directly to me and the Secretary. HSS 
leads the development of Departmental security policies, and provides 
us with unvarnished assessments of DOE program and facility security 
performance. Those assessments are performed independently of the line 
management which holds responsibility for managing security at our 
sites and facilities. However because HSS is independent of line 
management within the programs, it does not have authority to direct 
the Federal or contractor security officials at each site; it is up to 
these parties to take actions in response to HSS findings. HSS ideally 
plays a role in helping the programs implement security 
recommendations, and follow-up to ensure that those recommendations are 
adequately addressed. Over his career Mr. Podonsky has been well aware 
of the various internal and external studies that have been done on DOE 
security, and he has been involved at a senior level alongside previous 
Secretaries and Deputy Secretaries and the DOE program office line 
management, in determining the most appropriate response to each study.
    Mr. Rogers. Secretary Poneman, do you still have confidence in Mr. 
Podonsky as the Department's Chief Security Officer? Do you intend to 
hold him or his office accountable for failing to identify the myriad 
security problems at Y-12 just two months prior to the incident, or for 
failing to correct the long-standing security problems at DOE?
    Mr. Poneman. We see HSS as an important source of the solution. All 
of us in the DOE security community--from the Secretary and me to 
program office and site management in both headquarters and the field, 
including HSS, have an obligation to improve security performance and 
we are taking bold steps to ensure that the special nuclear materials 
of the DOE are adequately protected. For all of us who have not been 
removed from the line management of security following the incident, it 
is our sole duty to ensure that we have learned from the incident and 
quickly and effectively implemented corrective actions. HSS has been a 
key contributor to that effort. Since the Y-12 incident, HSS has led a 
successful extent-of-condition review of all DOE facilities which hold 
Category I special nuclear materials, and is now in the process of 
executing exhaustive inspections at each of these sites, to include 
enhanced force-on- force testing of our protective forces, as directed 
by the Secretary.
    Mr. Rogers. Administrator Miller, all of the studies the committee 
is aware have been conducted after the Y-12 incident have been 
finalized except the ``Special Review Team'' report conducted by NA-70. 
Initially, the committee was told that this assessment was expected to 
``contribute to the wider effort to identify root causes, develop 
conclusions, and outline recommendations'' for security improvements at 
Y-12 and in other agency facilities. However, although the team's work 
apparently concluded in September, it's been five months and the report 
has not yet been finalized. What is the reason for this delay?
    a. Have NNSA and DOE decided to discount the review because it was 
conducted by an organization whose oversight practices contributed to 
the incident? If that's the case, then why was the HSS review not 
similarly discounted, given that HSS gave the physical security system 
at Y-12 a clean bill of health just two months prior to the incident? 
Or is it that senior NNSA or DOE officials disagree with the 
recommendations and conclusions that the SRT report draws?
    Ms. Miller. As soon as the Special Review Team (SRT) returned from 
Tennessee, they shared their insights and findings with the Chief, 
Defense Nuclear Security (CONS) who took immediate action to resolve 
the issues cited. One of his actions was the immediate sharing of 
lessons learned with field offices as well as the five page summary of 
the issues found at Y-12 for use in assessing and improving their 
processes. That summary was also provided to the House Armed Services 
Committee. Additionally, in January 2013, a draft version of the Y-12 
Special Review Team report was provided to the House Armed Services 
Committee; however, the ``Assessment of NNSA Federal Organization and 
Oversight of Security Operations'' study was well underway and was 
yielding important recommendations. That report has since been 
completed and published, and was provided to the House Armed Services 
Committee staffers in December 2012.
    a. We value the information provided in the SRT report, and many of 
their observations focused on the larger National Nuclear Security 
Administration security program, and are applicable to all of our 
operations. It is also important to note that the May 2012 HSS Site 
Assistance Visit report that you cite as giving the physical security 
system at Y-12 ``a clean bill of health,'' did not represent a full 
security inspection of Y-12, but only examined a few site specific 
issues HSS was asked to help assess.
    Mr. Rogers. Administrator Miller, how is NNSA handling the 
conflicting recommendations generated from the various post-Y-12 
incident studies? For instance, the DOE-HSS and Finan reports recommend 
conducting more hands-on oversight of security, while Mr. Augustine and 
two external members of the SRT panel caution specifically against 
this. [Question #22, for cross-reference.]
    a. As the Acting Administrator, how will you ensure that NNSA and 
DOE conduct rigorous and effective--but not burdensome--oversight of 
security at NNSA's facilities?
    Ms. Miller. NNSA leadership implemented several processes and 
procedures to improve security throughout the enterprise and ensure a 
consistent standard for security operations. The Office of Defense 
Nuclear Security (NA-70) has been realigned to focus on policy 
development, strategic planning, and independent performance 
assessments of security activities. The Office of Infrastructure and 
Operations (NA-00), comprised of the NNSA Field Offices will develop an 
internal performance review culture that will supplement the local 
field offices. These performance reviews will be staffed by field 
office employees from other sites and be specifically integrated with 
other audit and surveillance plans to minimize operational impacts. To 
elaborate, I have revised our processes so that NNSA will rely on a 
three-tiered assessment model that will focus on performance and 
outcomes (not just process) at the tactical, operational, and strategic 
levels. The contractor self-assessment process continues as a 
``tactical level'' first tier in the overall assessment process. The 
Office of Infrastructure and Operations, drawing on NNSA federal 
resources from across the complex, will provide ``operational level'' 
oversight to ensure consistent and effective performance from a line 
management perspective. Finally, the ``strategic'' oversight is 
conducted by NA-70/CDNS. An internal independent Federal assessment 
organization, which reports directly to the Chief of Defense Nuclear 
Security, and will ensure requirements are properly implemented by 
going to the field, with minimal notice, and assessing security 
readiness, operations, and implementation. A final tier of the 
assessment model completely separate from NNSA is currently provided by 
the Office of Health, Safety and Security.
    a. As described in the response to Q22 [above], NNSA will employ a 
system of tactical, operational, and strategic oversight.
    Mr. Rogers. Administrator Miller, we've heard differing opinions on 
how DOE and NNSA's protective forces should be structured. Do you 
believe federalization of the protective forces is an appropriate path 
forward? What are the benefits, risks, and costs of the various models 
for the protective forces?
    Ms. Miller. I defer to the Deputy Secretary of Energy's response. 
[See page 131.]
    Mr. Rogers. Acting Administrator Miller, do you believe NNSA has a 
rigorous means of assessing, managing, and balancing security risks, 
costs, and mission needs? If so, please describe this process.
    Ms. Miller. Yes I do. NNSA leadership has implemented several 
processes and procedures to improve security throughout the enterprise 
and ensure a consistent standard for security operations.
    We realigned security resource execution to the Office of 
Infrastructure and Operations (NA-00) in alignment with its operational 
authority across all NNSA sites.
    <bullet>  NA-00 is assuming operational control over security 
implementation across the Nuclear Security Enterprise.
    <bullet>  Specifically, NA-00 will ensure:
        <bullet>  standardization of security procedures across the 
        field locations;
        <bullet>  provide operational assistance; and
        <bullet>  serve as a conduit for operational concerns to the 
        DNS staff.
    Additionally, the Defense Nuclear Security (DNS) mission was 
reinvigorated to focus on policy development, strategic planning, and 
performance assessments of field-led activities.
    For example, as NNSA Acting Administrator, I recently dispatched 
the new Acting Chief of DNS, travelling with a team of security 
professionals, to visit every NNSA site during his first 50 days in 
office, executing limited and no-notice assessments of their security 
readiness, operations, and program implementation. These site visits 
are the first step in what will become an enduring mission focus. NNSA 
is committed to change our culture of how we assess security so that we 
are less reliant on reports written by others and more focused on our 
own real time assessments with a ``boots on-the-ground'' approach.
    Mr. Rogers. Acting Administrator Miller, how much has the response 
and aftermath to the Y-12 incident cost? How is NNSA paying for these 
costs? Do you expect security costs to increase dramatically at Y-12 
and/or across the enterprise in Fiscal Year 2014 and beyond?
    Ms. Miller. The costs incurred for immediate corrective actions in 
FY 2012 were approximately $13,680K. Approximately $2,984K of this 
amount were indirect costs funded from organizational overhead pools. 
Approximately $10,696K were paid for directly from the Field Security 
(FS-20) account, but managed within the funding already allocated to 
the site prior to the event. Total costs will depend on NNSA approval 
of the specific baseline increases and non- recurring project/
procurements proposed by the site. For FY13 and beyond, these are still 
being carefully vetted by subject matter experts and senior decision 
makers and will be subject to the results of a new vulnerability 
analysis. DNS expects there may be some minor increases in the 
recurring level of effort, but most corrective actions have been and 
will be largely one-time costs.
    Mr. Rogers. Administrator Miller, several witnesses from the first 
panel indicated in their reports that the governance reforms initiated 
by Secretary Chu and Administrator D'Agostino were misinterpreted or 
misapplied by Federal staff, which was a contributing factor to the Y-
12 incident. Do you agree?
    Ms. Miller. Please see the answer the Deputy Secretary gave in 
response to question #16. [See page 131.]
    Mr. Rogers. Administrator Miller, NNSA has created the ``NA-00'' 
organization to manage the site offices. It will also have a role in 
overseeing security at NNSA facilities. How will this new organization 
fit into the many other organizations with security responsibilities, 
including NA-70, DOE-HSS, and the site offices? Are you confident that 
this extra office will resolve these long-standing problems with 
security organization, policy, and oversight? Are you at all concerned 
that this additional office will simply complicate an already too-
complicated structure?
    Ms. Miller. First and foremost, it is important to clarify that NA-
00 is not actually an additional layer or office. It is the combination 
of all NNSA Site Offices into a single operational entity. So, rather 
than have eight independent operational level entities, each 
establishing standards and procedures and setting expectations locally, 
the NA-00 organization will fulfill those functions on an enterprise 
basis. The Office of Infrastructure and Operations (NA-00), with 
enterprise operational responsibilities will drive consistent 
implementation of requirements across the Nuclear Security Enterprise.
    Specifically, NA-00 will:
    <bullet>  ensure consistent implementation of security policies 
while allowing for purposeful differences;
    <bullet>  deliver high quality engaged and active oversight of 
security operations;
    <bullet>  provide operational assistance between field offices; and
    <bullet>  serve as a conduit for operational concerns to the 
Defense Nuclear Security staff.
    Establishment of NA-00 will allow the Office of Defense Nuclear 
Security (NA-70) to focus on policy development, strategic planning, 
and perform independent assessments of security activities. Yes, I am 
confident that this new organization structure will resolve the long-
standing problems with security organization, policy, and oversight
    No, I do not believe this new organizational structure will cause 
any confusion. These organizational changes will result in clearer 
roles, responsibilities, and authorities.
    Mr. Rogers. Acting Administrator Miller, nearly every external 
review in the past decade has indicated serious problems with the 
security culture at NNSA and DOE. Culture changes are extremely 
difficult and often take a long time-what immediate-term actions should 
we be taking to begin this needed culture shift? What is your long-term 
plan to instill a new security culture? What is your plan to attract 
the kinds of experts and knowledge-base that are needed to perform 
effective oversight?
    Ms. Miller. Please see the Deputy Secretary's answer to question 
#18. [See page 133.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. General Alston, do NNSA contractors have too little 
independent oversight, or too much?
    General Alston. There was poor quality oversight of the contractor 
providing security at Y-12. The ``eyes on, hands off'' signal from the 
HQ, together with insufficient and inadequate performance-based 
assessments contributed to poor oversight conditions. Other sites' 
security operations, however, performed satisfactorily, in spite of 
`hands off' atmospherics. The quality of the oversight is one several 
key ingredients to effective performance.
    Mr. Cooper. Do you believe that the incident is the result of 
overly burdensome security requirements, as some have claimed?
    General Alston. I saw no evidence to substantiate overly burdensome 
security requirements as causal or even contributing to the incident. 
The NNSA ``eyes on, hands off'' signal contributed to a lack of 
sufficient oversight that empowered too much local discretion at Y12 
that resulted in additional and unjustifiable mission risk.
    Mr. Cooper. What should be done at the contract level to increase 
accountability and liability for failures? Should the government be 
able to seek damages for non-performance? Should criminal liability be 
an option?
    General Alston. I don't feel qualified to comment on or suggest 
specific contracting options to ensure proper security performance 
because the duration of the project was short and the direction from 
the Secretary of Energy did not lead me in that direction. I personally 
wouldn't prefer to secure nuclear materials with contractors. But if 
DOE and NNSA continue to purchase protective services, governance 
requirements and accountability needs to be squared away with the 
government overseers first.
    Mr. Cooper. General Finan, do you think that NNSA has gone too far 
in delegating responsibility for making security decisions to its 
contractors?
    General Finan. Yes, in some cases. There was no clear policy 
guidance on what could be delegated or how the delegations would be 
implemented. NAP- 70.2, Physical Protection, has allowed for varied 
interpretations of what can and cannot be delegated. There was no 
standardized process for the delegation of CSA from the Chief of 
Defense Nuclear Security to the Federal security managers. Further 
delegation of CSA to the security contractor was inconsistently 
exercised and in some cases inappropriate. As a result, the contractor 
was sometimes allowed to approve security plans and procedures without 
effective Federal oversight or approval.
    Mr. Cooper. General Finan, do NNSA contractors have too little 
independent oversight, or too much?
    General Finan. NNSA contractors do not have the right kind of 
oversight. Much of the ``burden'' of oversight is caused by excessive 
paperwork associated with evaluating compliance. The current security 
assessment process in NNSA is paper-based and is heavily dependent on 
field office and contractor reporting. Large volumes of paperwork are 
generated each quarter in which it is nearly impossible to discern 
trends or significant deficiencies.
    In the area of security, oversight must be about performance. 
Therefore, oversight should see actual performance in the form of real 
world activity or exercises. Some paperwork should be reviewed, such as 
training records, but that paper work should already exist and not be 
generated solely for the purpose of outside oversight. Specific 
standards against which security operations are to perform and the 
criteria by which they will be evaluated must be codified. This will 
ensure security contractors know what is expected and how they will be 
evaluated. By eliminating paperwork generated solely for the purpose of 
oversight and adhering to a known set of standards and criteria, 
security oversight should not be burdensome.
    Mr. Cooper. Do you believe that the incident is the result of 
overly burdensome security requirements, as some have claimed?
    General Finan. No. A lack of clearly defined security requirements 
contributed to the incident. There is no clearly established 
requirements-driven baseline to govern the implementation of the NNSA 
security program. Rather, the NA-70 approach deliberately departed from 
key DOE Security Orders and established a less restrictive security 
policy framework through the NAPs without resolving the different 
performance measurement expectations between the two policies. The lack 
of clearly defined performance requirements resulted in inconsistent 
and incomplete security program implementation. A performance baseline, 
set forth in detailed standards and criteria, is the keystone of an 
effective security program. Precisely articulated standards and 
criteria further provide an objective foundation for performance 
assessment. Currently, NNSA does not have the standards or criteria 
necessary to effectively measure security program performance. The Task 
Force noted that the lack of standards and criteria has been coupled 
with the widespread notion that contractors must only be told ``what'' 
the mission is, not ``how'' the mission is to be accomplished. 
Therefore, security tasks are not necessarily performed in a manner 
consistent with NNSA security requirements.
    We should also resist the notion that strong performance-based 
standards and criteria and an equally strong insistence on stringent 
performance assessment and oversight inherently constitutes an 
excessive burden on contractors and the field. Part of the cultural 
challenge lies in overcoming the tendency on the part of contractors 
and their field level federal counterparts to assert that their local 
priorities and perspectives must take precedence over comprehensive and 
coherent, centrally-driven security program direction. A good system 
must take into account special local circumstances. However, NNSA's 
longstanding tradition has been the assertion that ``the field always 
knows best,'' and that Headquarters should simply stay out of their 
business. Upon close examination, many complaints about ``excessively 
burdensome HQ security oversight'' are revealed as exercises in ``turf 
protection''.
    Mr. Cooper. What should be done at the contract level to increase 
accountability and liability for failures? Should the government be 
able to seek damages for non-performance? Should criminal liability be 
an option?
    General Finan. This is largely an issue for contracting. It is 
important that responsibilities and authorities are properly aligned. 
Each organization needs to have clearly defined responsibilities. With 
each of these responsibilities, the appropriate authority must be 
accorded. With responsibility and authority in alignment, individual 
and organizational accountability is established.
    Mr. Cooper. Mr. Friedman, do you think that NNSA has gone too far 
in delegating responsibility for making security decisions to its 
contractors?
    Mr. Friedman. Given the structure of NNSA (specifically, the number 
of contractor versus Federal personnel), extensive responsibility for 
security decisions has been delegated to contractors. This having been 
said, we found that Federal oversight of the contractors and their 
security decisions was inadequate. At Y-12 the lack of local Federal 
involvement in technical security issues and NNSA's ``eyes on, hands 
off'' policy were troubling, suggesting to us that the relationship 
between contractor responsibility and Federal responsibility for site 
security was out of balance.
    Mr. Cooper. Mr. Friedman, do NNSA contractors have too little 
independent oversight, or too much?
    Mr. Friedman. In my opinion, NNSA contractors have too little 
independent oversight. Local Federal oversight had employed an ``eyes 
on, hands off'' approach, with limited independent performance testing/
assessment. In recent years the number and scope of reviews by HSS has 
also been reduced.
    Mr. Cooper. Do you believe that the incident is the result of 
overly burdensome security requirements, as some have claimed?
    Mr. Friedman. No. Our reviews of security across the complex have 
not revealed examples of what we considered to be overly burdensome 
security requirements. Rather, we found that the incident at Y-12 
resulted from multiple system failures on several levels. For example, 
we identified troubling displays of ineptitude in responding to alarms, 
failures to maintain critical security equipment, over-reliance on 
compensatory measures, misunderstanding of security protocols, poor 
communications, and weaknesses in contract and resource management. So-
called burdensome security requirements were not part of the sequence 
of events at Y-12.
    Mr. Cooper. What should be done at the contract level to increase 
accountability and liability for failures? Should the government be 
able to seek damages for non-performance? Should criminal liability be 
an option?
    Mr. Friedman. To increase accountability and liability for failures 
at the contract level, performance measures should be added to each 
contractor's Performance Evaluation Plan to incorporate security into 
each mission element. Such action would hopefully prevent contractors 
from earning full performance fees unless security is: (1) integrated 
into day-to-day processes and, (2) found to be effective and efficient 
by external reviewers. While the fee structure provides an incentive 
for excellence in contractor performance in the security arena, the 
NNSA/DOE should not be reluctant to terminate contracts for poor 
performance. That may be an extreme measure for some, but when national 
security interests are at stake, it is a step which needs to be 
available to, and exercised by, Federal managers.
    Mr. Cooper. Secretary Poneman, are lessons from the deficiencies in 
security oversight being applied to safety oversight? How?
    Mr. Poneman. Yes. Where we see opportunities for improvement 
identified in our response to the Y-12 security incident which can also 
be employed to improve our oversight of safety, we will seek to do so. 
A fundamental failure in the Y-12 incident was the inadequate flow of 
information about underlying security problems up through the 
management chain. Under the leadership of the Office of Health, Safety 
and Security (HSS), over the past year a number of independent 
assessments have identified deficiencies in safety culture at several 
DOE projects, sites and programs. We know now that we must do a better 
job in creating an environment where employees at all levels feel 
motivated to identify deficiencies in both safety and security, and 
feel confident that they can bring those problems forward without 
retaliation and to work with management to develop appropriate 
solutions. This, too, is a very high priority for our leadership team.
    Mr. Cooper. Secretary Poneman, what was the cost of overtime to 
avoid delays due to Y-12 being shut down?
    Mr. Poneman. Following the security incident in July 2012, 
operations activities at Y-12 were shut down from July 30 to August 14, 
2012, for a total of 10 days. This shutdown impacted a number of 
operations activities, including Category 1 and 2 Special Nuclear 
Materials Operations. Restart of these activities were phased back in 
on August 15, 2012; overtime costs of about $34,000 were incurred in 
order to get the work back on schedule.
    Mr. Cooper. Secretary Poneman, B&W got nearly 60% of its award fee 
in FY2012. The security failure at Y-12 only cost them $12 million in 
un-earned fee. [Question #42, for cross-reference.]
    <bullet>  What should be done at the contract level to increase 
accountability and liability for failures? Should the government be 
able to seek damages for non-performance and be able to impose fines?
    <bullet>  Should criminal liability be an option to improve the 
incentives for performance and the contractor culture?
    <bullet>  Other than docking Babcock & Wilcox's award fee for 
security, is NNSA attempting to get back part of the more than $150 
million that was spent on security, given non performance?
    Mr. Poneman. The contract, along with existing Federal and DOE 
Acquisition Regulations, have sufficient terms and conditions to hold 
contractors accountable and liable for performance failures. 
Additionally, given the unprecedented nature of this failure, the 
Department is reviewing our existing regulatory authorities to 
determine if these need to be expanded to cover the security of special 
nuclear materials.
    The Department possesses statutory and regulatory authority to 
impose civil penalties. In addition, I believe adequate and sufficient 
criminal laws are already in place. Federal criminal law involving 
fraud, conflict of interest, bribery or gratuity violations and false 
claims are currently applicable, as appropriate, to contractors. In 
addition, contractors must ensure that no false, fictitious, or 
fraudulent statements are made to a Federal agency under 18 U.S.C. 
Sec. 1001.
    The Department is in the process of reviewing the matter and will 
enforce its rights under the contract to hold Babcock & Wilcox Y12 
accountable for its deficient work, including withholding payment of 
costs if appropriate.
    Mr. Cooper. Secretary Poneman, nearly every external review in the 
past decade has indicated serious problems with the security culture at 
NNSA and DOE. Culture changes are extremely difficult and often take a 
long time--what immediate-term actions should we be taking to begin 
this needed culture shift?
    <bullet>  What is your long-term plan to instill a new security 
culture?
    <bullet>  What is your plan to attract the kinds of experts and 
knowledge-base that are needed to perform effective oversight?
    Mr. Poneman. Please see Deputy Secretary Poneman's response to 
question 18 for an answer to the first bullet. [See page 133.] The 
answer to the second bullet is provided by Deputy Secretary Poneman's 
response to question 19. [See pages 133-134.]
    Mr. Cooper. Secretary Poneman, how are you ensuring that Federal 
oversight performs site vulnerability analyses that look at the 
systemic impact and the broader implications of individual security 
decisions? [Question #46, for cross-reference.]
    Mr. Poneman. The current vulnerability analysis (VA) process is 
driven at the site level. While this ensures results that are highly 
tailored to individual site-specific parameters, it can also produce 
widely divergent approaches to security across the NNSA.
    This issue was recognized in General Finan's Report ``Assessment of 
NNSA Federal Organization and Oversight of Security Operations.'' The 
report was the main driver for the establishment of the Office of 
Security Operations (NA-00-30) within the larger NA-00 Office of the 
Associate Administrator for Infrastructure and Operations. Consistent 
with the recommendations of the Finan Report, NA-00-30 will be the 
centralized security function for NNSA that ensures line management 
authority, responsibility, and accountability for the security program 
within the NNSA.
    In its role as the centralized security function, NA-00-30 will 
establish a new centralized VA process that employs a core team of VA 
experts teamed with site subject matter experts to produce site-
specific analyses while gaining consistency across the Enterprise, 
identifying systemic issues and broader implications, and ensuring 
greater transparency and justification for Field Security (FS-20) 
budget requests.
    Mr. Cooper. Acting Administrator Miller, are lessons from the 
deficiencies in security oversight being applied to safety oversight? 
How?
    Ms. Miller. Yes. Lessons learned from the Y12 security incident are 
being applied to safety oversight. The organizational changes and 
revised oversight approach for security are also being implemented for 
safety. In addition, NNSA is working aggressively to evaluate and 
improve its safety culture across all sites. Although this effort began 
before the Y12 event, strengthening NNSA's safety conscious work 
environment will help ensure contractor and Federal personnel are 
encouraged and motivated to identify and seek resolution of safety 
issues and to raise these issues up through the management chain. One 
of the more significant lessons learned in the Y-12 incident was that 
known, significant issues with security were not being raised from 
subject matter experts up through the NNSA management chain.
    Mr. Cooper. Acting Administrator Miller, what was the cost of 
overtime to avoid delays due to Y-12 being shut down?
    Ms. Miller. Following the security incident in July 2012, 
operations activities at Y-12 were shut down from July 30 to August 14, 
2012, for a total of 10 days. This shutdown impacted a number of 
operations activities, including Category 1 and 2 Special Nuclear 
Materials Operations. Restart of these activities were phased back in 
on August 15, 2012; overtime costs of about $34,000 were incurred in 
order to get the work back on schedule.
    Mr. Cooper. Acting Administrator Miller, B&W got nearly 60% of its 
award fee in FY2012. The security failure at Y-12 only cost them $12 
million in un-earned fee.
    <bullet>  What should be done at the contract level to increase 
accountability and liability for failures? Should the government be 
able to seek damages for non-performance and be able to impose fines?
    <bullet>  Should criminal liability be an option to improve the 
incentives for performance and the contractor culture?
    <bullet>  Other than docking Babcock & Wilcox's award fee for 
security, is NNSA attempting to get back part of the more than $150 
million that was spent on security, given non-performance?
    Ms. Miller. Please see Deputy Secretary Poneman's response to 
question 42. [See page 141.]
    Mr. Cooper. Acting Administrator Miller, nearly every external 
review in the past decade has indicated serious problems with the 
security culture at NNSA and DOE. Culture changes are extremely 
difficult and often take a long time--what immediate-term actions 
should we be taking to begin this needed culture shift?
    <bullet>  What is your long-term plan to instill a new security 
culture?
    <bullet>  What is your plan to attract the kinds of experts and 
knowledge-base that are needed to perform effective oversight?
    Ms. Miller. For response to the first part of the question on 
security culture, please see response to question 18. [See page 133.]
    In addition to our overall efforts to improve the NNSA performance 
culture, we are taking additional actions to specifically address 
security. We have recruited new leaders for both the Office of Defense 
Nuclear Security (NA-70) and the office of security within the Office 
of Infrastructure and Operations (NA-00). Those leaders come to us from 
outside the Department of Energy and bring vast and varied sets of 
skills and experience from their careers in the Department of Defense 
nuclear community.
    Besides the infusion of new leadership, we are encouraging a 
questioning attitude from the people that perform the work day-to-day 
at the sites. While it is easy to fall into routines that contribute to 
the effect of not being able to see the forest for the trees, 
encouraging employees to question the status quo also promotes 
ownership and understanding of the security processes.
    Another thing we plan to incorporate into the NA-00 performance 
assurance process is the use of security professionals from across the 
complex to augment our assessments. This provides several advantages; 
it allows security professionals from other sites to participate in the 
evaluation process removing the mystique, takes advantage of and 
recognizes the professionals at the other sites, and encourages the 
sharing of best practices. All of these contribute to instilling a new 
security culture.
    Additionally, NA-70 will focus on policy development, strategic 
planning, and performance assessments of field activities.
    Using small assessment teams of security experts with minimal 
advanced notice to the sites, NA-70 will assess security readiness, 
operations and program implementation of both the Federal and 
contractor security elements. These assessments will be short in 
duration but repetitive throughout the year.
    This new assessment approach will require additional oversight 
personnel. NA-70 is working to recruit additional Federal senior 
security specialists. These individuals will augment the current 
Federal senior security specialists to allow for the execution of a 
rigorous assessment program.
    We are working with our Human Capital community in an effort to 
target recruitment of oversight personnel toward communities that are 
rich in the basic skill sets germane to the mission. Specifically, we 
are looking to tap into the pool of resources which have previously 
served an oversight and/or assessment role in support of the National 
nuclear security mission.
    Mr. Cooper. Acting Administrator Miller, how are you ensuring that 
Federal oversight performs site vulnerability analyses that look at the 
systemic impact and the broader implications of individual security 
decisions?
    Ms. Miller. Please see Deputy Secretary Poneman's response to 
question 46. [See page 141.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
